<html>
<title> - COORDINATION OF CRIMINAL JUSTICE ACTIVITIES IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





COORDINATION OF CRIMINAL JUSTICE ACTIVITIES IN THE DISTRICT OF COLUMBIA

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 11, 2001

                               __________

                           Serial No. 107-20

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-090                     WASHINGTON : 2001


____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
JOE SCARBOROUGH, Florida             ------ ------
                                     ------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
                  Matthew Batt, Legislative Assistant
                      Jon Bouker, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 11, 2001.....................................     1
Statement of:
    Kellems, Margret Nedelkoff, Deputy Mayor for Public Safety 
      and Justice, Government of the District of Columbia; Kathy 
      Patterson, chairperson, Committee on the Judiciary; and 
      Rufus King III, Chief Judge, Superior Court of the District 
      of Columbia................................................    54
    Ramsey, Charles H., chief of police, Government of the 
      District of Columbia; Kenneth L. Wainstein, acting U.S. 
      attorney, District of Columbia; John L. Clark, Corrections 
      trustee, D.C. Office of the Corrections Trustee; Cynthia E. 
      Jones, Director, Public Defender Service of D.C.; Susan W. 
      Shaffer, Esq., Director, District of Columbia Pretrial 
      Services Agency; and Michael J. Gaines, chairman, U.S. 
      Parole Commission..........................................    89
    Stana, Richard, Director of Justice Issues, General 
      Accounting Office, accompanied by William Jenkins, Jr., 
      Assistant Director of General Government Division, GAO; 
      Mark A. Tremba, Senior Analyst, Justice Issues, GAO; and 
      Steve Harlan, chairman, the Council for Court Excellence, 
      accompanied by Samuel F. Harahan, executive director, the 
      Council for Court Excellence...............................    17
Letters, statements, etc., submitted for the record by:
    Clark, John L., Corrections trustee, D.C. Office of the 
      Corrections Trustee, prepared statement of.................   121
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    14
    Gaines, Michael J., chairman, U.S. Parole Commission, 
      prepared statement of......................................   155
    Harlan, Steve, chairman, the Council for Court Excellence, 
      prepared statement of......................................    41
    Jones, Cynthia E., Director, Public Defender Service of D.C., 
      prepared statement of......................................   135
    Kellems, Margret Nedelkoff, Deputy Mayor for Public Safety 
      and Justice, Government of the District of Columbia, 
      prepared statement of......................................    57
    King, Rufus, III, Chief Judge, Superior Court of the District 
      of Columbia, prepared statement of.........................    79
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     4
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia:
        Chart on parolees arrested on new charges................     9
        Prepared statement of....................................   175
    Patterson, Kathy, chairperson, Committee on the Judiciary, 
      prepared statement of......................................    69
    Ramsey, Charles H., chief of police, Government of the 
      District of Columbia, prepared statement of................    92
    Shaffer, Susan W., esq., Director, District of Columbia 
      Pretrial Services Agency, prepared statement of............   145
    Stana, Richard, Director of Justice Issues, General 
      Accounting Office, prepared statement of...................    20
    Wainstein, Kenneth L., acting U.S. attorney, District of 
      Columbia, prepared statement of............................    98

 
COORDINATION OF CRIMINAL JUSTICE ACTIVITIES IN THE DISTRICT OF COLUMBIA

                              ----------                              


                          FRIDAY, MAY 11, 2001

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance A. 
Morella (chairwoman of the subcommittee) presiding.
    Present: Representatives Morella, Davis, and Norton.
    Staff present: Russell Smith, staff director; Heea 
Vazirani-Fales, deputy staff director; Victoria Proctor, 
professional staff member, Subcommittee on Technology and 
Procurement Policy; Matthew Batt, legislative assistant; Robert 
White, communications director; David Marin, professional staff 
member, Subcommittee on Technology and Procurement Policy; Jon 
Bouker, minority counsel; and Jean Gosa, minority assistant 
clerk.
    Mrs. Morella. I will call the Subcommittee of the District 
of Columbia to order.
    Good morning. Welcome to all of you. It is a pleasure to 
welcome everybody, witnesses and interested parties, to the 
second hearing of the Subcommittee on the District of Columbia 
in the 107th Congress.
    I want to recognize the members of the subcommittee who are 
here with us today. We have our ranking member, Congresswoman 
Norton, and we have Congressman Davis, who is the former chair 
of the subcommittee, and Mr. Platts is expected to join us 
soon.
    Mr. Scarborough has indicated that he cannot be with us 
today.
    I do want to make a special mention of our witnesses, all 
of whom have outstanding credentials, and over and above that, 
they are professionals who have dedicated a major part of their 
lives to the justice system.
    Of course, I want to recognize the work of the General 
Accounting Office that we have seen in their comprehensive 
report, the D.C. criminal justice system, ``Better Coordination 
Needed Among Participating Agencies,'' as it is entitled. That 
sets the foundation for this hearing.
    I am going to remind people that the rules of the Committee 
on Government Reform require that all witnesses be administered 
an oath prior to testifying. I will administer that later.
    Also, I want to encourage opening statements and witness 
statements to be presented in about 5 minutes or less. This 
should be as efficient as this criminal justice system should 
be. Of course, you may summarize your statements, and this will 
give us more time to dialog with each of you. Your entire 
prepared statements will be entered into the record in toto.
    So we are here today to examine the role that Congress can 
play in helping the various Federal and local agencies that 
make up the District of Columbia's criminal justice system work 
together to reduce crime, impose justice, and make our citizens 
and visitors to the Nation's Capital safer.
    Before we begin talking about possible solutions, I just 
want to take a minute to illustrate the problem that this 
hearing is convened to address.
    Setting aside the more than 30 law enforcement agencies 
with a presence in the Nation's Capital, there are 13 
governmental agencies that have a direct role in criminal 
justice activities in the District, from arrest and booking to 
trial to correctional supervision.
    Four of these are city agencies, such as the Metropolitan 
Police Department; six are Federal agencies, such as the Office 
of the U.S. Attorney for the District of Columbia; and finally, 
there are three agencies, Superior Court, Defender Services, 
and Office of the Corrections Trustee, that are local in nature 
but are funded by the Federal Government.
    There is plenty of evidence, including recent reports from 
the Government Accounting Office and the Council for Court 
Excellence that we will hear from today, that these individual 
agencies of the District of Columbia's criminal justice system 
are not always working in concert, and as a result, efforts at 
reform have sometimes stalled.
    The Police Department loses millions of dollars a year 
paying overtime to officers who are waiting for court cases or 
waiting to consult with the U.S. attorney's office. This is not 
the height of efficiency.
    The agencies use 70 different information technology 
systems, but they are not linked to one another.
    Most tragically, miscommunication among agencies has led to 
mistakes in correctional supervision, sometimes with fatal 
consequences. Most notable is the killing of Bettina Pruckmayr, 
who was robbed and stabbed 38 times in 1995 by a criminal named 
Leo Gonzalez Wright. Wright was a convicted murderer who should 
have had his parole revoked on a drug charge, if not for the 
failures of the criminal justice system.
    Today we are going to have GAO and the Council for Court 
Excellence shed some light on why these problems persist, how 
deep they are, and what we can do to change this situation. We 
are also going to hear, I hope, some suggestions from the 
policymakers and the agency heads who have direct 
responsibility for the District of Columbia's criminal justice 
system and for making it function smoother.
    We also will be examining the future of the Criminal 
Justice Coordinating Council, which was created a couple of 
years ago by the D.C. Financial Control Board as a way of 
bringing together the various criminal justice departments. It 
has realized some successes, but unfortunately, the Council is 
down to a lone staff member who is being paid through a grant.
    With proper funding and structure, I believe the CJCC can 
be a very useful tool in fostering interagency cooperation. Not 
only can it assist in making more efficient the day-to-day 
functions of our various criminal justice agencies, but in so 
doing, the CJCC can help ensure the broader policy goals, such 
as reducing violent crime and meting out justice more swiftly. 
We can assure that is done, also.
    The questions facing us are: Who should fund the CJCC; at 
what level; how should it be structured; and what should its 
responsibilities be?
    Mayor Anthony Williams and the city Council have proposed 
providing $169,000 in funding for the CJCC in fiscal year 2002. 
GAO has suggested that Congress fully fund the CJCC to ensure 
that the Council will retain its independence, with no formal 
link to any of its participating members.
    I think $169,000 is mighty low, but I am interested to hear 
from our witnesses today what they believe is the most 
appropriate as we continue to reform our criminal justice 
system.
    [The prepared statement of Hon. Constance A. Morella 
follows:]

[GRAPHIC] [TIFF OMITTED] T6090.001

[GRAPHIC] [TIFF OMITTED] T6090.002

    Mrs. Morella. I would now like to yield to our 
distinguished ranking member in the District of Columbia 
Subcommittee, who is in the District of Columbia and who 
represents the District of Columbia, Congresswoman Norton.
    Ms. Norton. Thank you very much, Mrs. Morella.
    May I first express my thanks to my good friend, the 
chairman of the committee, Representative Connie Morella, for 
initiating this hearing on the coordination of criminal justice 
functions in the District of Columbia.
    For the record, I would like to thank, as well, the former 
chairs of the District of Columbia appropriations 
subcommittees, Representative Ernest Istook and Senator Kay 
Bailey Hutchinson, who commissioned the GAO report in the 
fiscal year 2000 D.C. Appropriations Act.
    Crime and criminal justice continue to rank among the 
highest priorities for my constituents. However, coordination 
of governmental functions among 13 agencies divided between two 
independent jurisdictions poses a unique management challenge.
    The agencies include D.C.-funded D.C. agencies, such as the 
Medical Examiner; federally funded D.C. agencies, such as the 
Superior Court; and federally funded Federal agencies, such as 
the Bureau of Prisons [BOP]. No other jurisdiction in the 
United States interfaces with an entirely different and 
independent jurisdiction in order to carry out indispensable 
functions.
    Poor coordination cannot help but adversely affect law 
enforcement in the District up and down the line of responsible 
agencies.
    The District and the Control Board deserve our 
congratulations for the important achievements of the Criminal 
Justice Coordinating Council [CJCC], during one of the most 
difficult periods in District of Columbia history. Our Police 
Department, under Chief Charles Ramsey, deserves primary credit 
for the sharp decline of crime in the District after a long 
period of sustained high crime rates, but the CJCC agencies and 
the coordination among them deserve some of the credit, as 
well.
    In addition, Mayor Tony Williams and Deputy Mayor for 
Public Safety and Criminal Justice Margaret Kellums, whom the 
Mayor promoted to Deputy Mayor as a result of her work on the 
staff of the CJCC, have a sophisticated understanding of what 
it would take to help create the seamless criminal justice 
system this mission requires.
    While I welcome this hearing, there are criminal justice 
issues included in today's hearing under our Federal 
jurisdiction that need special attention. Among the most urgent 
is a hearing I hope we can soon have on halfway house 
operations.
    Presently, D.C. residents are confused and concerned about 
the new Federal system of halfway houses. Before the Federal 
Government took control of the system, halfway houses over many 
years had garnered poor reputations in city neighborhoods, 
leading to wholesale opposition to the placement of halfway 
houses today.
    Residents have not learned of improvements instituted by 
the Bureau of Prisons and the Court Services and Offenders 
Supervision Agency [CSOSA].
    For example, because of rigorous management and deeply 
interventionist and helpful probation programs in halfway 
houses, CSOSA has been able to reduce recidivism among 
probationers released from prison remarkably by almost 75 
percent since they had control of this program.
    Now, with more inmates--this graph shows what the 
recidivism rate was when they got the program, and the 
reduction since they have had the program.
    Now, with more inmates being released from prison, more 
halfway house space is needed. However, neighborhood opposition 
to such facilities is widespread, at least in part because 
residents lack information concerning the improved Federal 
operation of halfway houses by CSOSA, and have no information 
on the reduction of crime because of halfway house programs.
    Consequently, the BOP has been forced to release discharged 
inmates on probation who are now unable to submit to the 
rigorous halfway house process because of a lack of halfway 
house space. The results are heartbreaking to me, as I believe 
they would be to residents and to CSOSA.
    After bringing down recidivism dramatically among newly 
discharged inmates when CSOSA had halfway house availability, 
we are now releasing inmates from prison who do not go through 
the halfway house process. As a result, crime by newly released 
inmates has begun to climb again. Without immediate action, we 
may well see the rise in crime rates in the District that the 
city has greatly reduced only with monumental effort.
    I also will be particularly interested today in testimony 
concerning police overtime. I have repeatedly asked that this 
issue receive priority attention, yet this costly problem 
remains unresolved.
    As the GAO report indicates, the equivalent of 23 full-time 
officers were devoted to court appearances in 1999. I'm sure 
that the agencies involved have explanations from the 
perspectives of their missions. However, after years of 
insufficient attention and incalculable losses of funds, patrol 
time in our neighborhoods, and probably even injury and loss of 
life for residents, I am going to insist today that the 
relevant agencies, especially the courts, the U.S. attorney, 
and the MPD, submit at least a preliminary plan to the CJCC 
within 60 days and to this subcommittee within 90 days.
    Finally, I appreciate all the work and the findings of the 
GAO, but its recommendation for a new Federal entity to 
coordinate CJCC functions in the future is not likely to be 
effective in the District of Columbia.
    Perhaps this proposal is intended to encourage funding from 
the Congress, but if so, that is an insufficient reason to set 
up an independent Federal entity that, in my judgment and 
experience, would find it difficult to gain the confidence of 
local officials and the people of the District of Columbia.
    I would prefer a more detailed analysis of the pros and 
cons of all the possible alternatives before fixing upon a 
single option, especially one that does not appear tailored to 
meet the unique circumstances and nuances of these functions in 
the District of Columbia.
    The problems raised by the GAO report are very challenging, 
but the District has shown that it knows how to design 
approaches to solve problems equally, if not more challenging. 
I have no reason to doubt the ability of the home rule 
government and the Federal agencies working together to create 
the necessary partnership.
    I will be interested to hear the views of the agencies 
concerning how the coordination function should be structured.
    Again, my appreciation to the Chair for this hearing, and 
my thanks to all the witnesses for their testimony.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T6090.123

[GRAPHIC] [TIFF OMITTED] T6090.124

[GRAPHIC] [TIFF OMITTED] T6090.125

    Mrs. Morella. Thank you, Ms. Norton.
    I am pleased to recognize for an opening statement Mr. 
Davis.
    Mr. Davis. Thank you, Madam Chairman. Good morning.
    I want to thank Chairwoman Morella for organizing today's 
hearing about the current state of the criminal justice system 
in the District of Columbia.
    I also want to thank the witnesses for coming to discuss 
this critical issue with the subcommittee today.
    The fiscal year 2000 District of Columbia Appropriations 
Act required the GAO to conduct a study of the city's criminal 
justice system. GAO recently completed the study, which 
analyzed the structure of the criminal justice system and 
assessed its effect on the coordination of activities between 
relevant agencies.
    It also reviewed the current initiatives for improving the 
system. In 1997, the District of Columbia was making great 
progress in overcoming the spending and management crisis that 
had driven it to near bankruptcy just 2 years earlier.
    In order to encourage stronger management practices and 
alleviate the financial burden in the fastest growing parts of 
the city's budget, such as the criminal justice system, 
Congress passed the National Capital Revitalization and Self-
Government Improvement Act of 1997. It restructured and 
improved the complex relationship between the Federal 
Government and the Nation's Capital.
    Its essential elements included the Federal assumption of 
some governmental functions that are normally performed by 
State governments. Therefore, several D.C. criminal justice-
related agencies were brought under Federal funding.
    The act also placed certain programs, such as felony 
incarceration, under the jurisdiction of the Federal 
Government, which was better equipped to handle those services.
    Unfortunately, GAO's report indicates in the area of 
criminal justice that some inefficiencies still persist. GAO 
found an absence of coordination between key agencies in the 
system. This is alarming because of the potential impact on 
public safety. Currently, agencies do what is in their best 
interests, instead of operating as a part of the whole. Our 
objective is to have a well-oiled machine, with all parts 
working in tandem.
    I look forward to hearing from our panel of witnesses today 
to learn their ideas about how to best identify and implement 
the reforms recommended by the GAO to ensure operational 
efficiency. GAO reported that we need to assess the current 
efforts to coordinate among the agencies.
    We also need to determine what incentives can be 
established to encourage the agencies to cooperate in their 
efforts, thereby ensuring a smooth and efficient process.
    However, there are some basic impediments to achieving our 
goal. GAO has identified several factors that complicate 
coordination efforts, including the agencies' different funding 
structures, organizational perspectives, and data collecting 
systems. In fact, GAO found that there are over 70 different 
computer systems in use. Information technology and data base 
management are clearly among the first areas I think that need 
to be reformed.
    The report also found the agencies' competing interests 
preclude them sometimes from performing and pursuing reforms 
because they are also perceived as non-beneficial or 
financially burdensome. Unfortunately, the agencies cannot even 
agree on the nature of the problems that need to be addressed, 
so the system suffers.
    In 1998, the Criminal Justice Coordinating Council was 
created as an independent entity. Agencies could rely on it to 
identify and address significant coordination issues and reform 
initiatives. Until this year, it was funded by the Control 
Board, but now CJCC has been reduced to one staff member funded 
through a grant.
    The CJCC has made progress in addressing some coordination 
concerns, particularly in the area of data-sharing among 
agencies. But there is still a lot of work to be done. I look 
forward to hearing our witnesses' opinions about the benefits 
of maintaining CJCC as recommended by GAO.
    I am also interested in hearing about the obstructions that 
the agencies themselves have identified and the solutions they 
propose to overcome the challenges facing the coordination of 
the city's criminal justice system.
    Your testimony will help us determine what, if any, 
congressional action may be needed to facilitate critical 
reform efforts.
    Thank you very much.
    [The prepared statement of Hon. Thomas M. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6090.126
    
    [GRAPHIC] [TIFF OMITTED] T6090.127
    
    [GRAPHIC] [TIFF OMITTED] T6090.128
    
    Mrs. Morella. Thank you, Mr. Davis.
    On our first panel, I am pleased to recognize Mr. Richard 
Stana, Director of Justice Issues, General Accounting Office, 
accompanied by Mr. William Jenkins, Assistant Director of 
General Government Division, GAO; Mr. Mark Tremba, Senior 
Analyst, Justice Issues, also the GAO.
    We also have Mr. Steve Harlan, chairman of the Council for 
Court Excellence, accompanied by Mr. Samuel F. Harahan, 
executive director of the Council for Court Excellence.
    Thank you, gentlemen. If you will rise in accordance with 
the policy of this committee and raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. The record will reflect an affirmative 
response.
    Again, as I stated, so that we have an opportunity to ask 
questions and hear our other panels, too, if I could ask you to 
try pretty much to confine your statement to 5 minutes. 
Whatever you have submitted in toto will be included in the 
record.
    We will start off with you, Mr. Stana.

   STATEMENTS OF RICHARD STANA, DIRECTOR OF JUSTICE ISSUES, 
GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY WILLIAM JENKINS, JR., 
ASSISTANT DIRECTOR OF GENERAL GOVERNMENT DIVISION, GAO; MARK A. 
TREMBA, SENIOR ANALYST, JUSTICE ISSUES, GAO; AND STEVE HARLAN, 
  CHAIRMAN, THE COUNCIL FOR COURT EXCELLENCE, ACCOMPANIED BY 
 SAMUEL F. HARAHAN, EXECUTIVE DIRECTOR, THE COUNCIL FOR COURT 
                           EXCELLENCE

    Mr. Stana. Thank you, Madam Chairman and members of the 
subcommittee. I am pleased to be here today to discuss the 
results of our review of the District of Columbia's criminal 
justice system.
    With me at the table are Bill Jenkins, Assistant Director 
on this assignment, and Mark Tremba, the lead analyst.
    As you know, the criminal justice process from arrest 
through correctional supervision in any jurisdiction is 
generally complex and typically involves a number of 
participants, including police, prosecutors, defense attorneys, 
courts, and corrections agencies.
    Coordination among these participants is necessary for the 
process to function as efficiently as possible within the 
requirements of due process; that is, all involved agencies 
need to work together to ensure proper and efficient system 
operations, identify any problems that emerge, and decide how 
best to balance competing interests in resolving these 
problems.
    Our report and my prepared statement discuss in detail the 
structure of the D.C. criminal justice system, the mechanisms 
that exist to coordinate its participants' activities, and 
current initiatives aimed at improving overall operations.
    In my oral statement, I would like to highlight three main 
points. First, the D.C. criminal justice system has a unique 
structure that blends Federal and D.C. jurisdictional 
boundaries and funding streams. As shown in table 1, the D.C. 
criminal justice system consists of four D.C. agencies 
principally funded through local D.C. funds, six Federal 
agencies, and three D.C. agencies principally funded through 
Federal appropriations.
    Seven of the 10 agencies of the D.C. criminal justice 
system require coordination among agencies funded by different 
sources. Over 30 law enforcement agencies, other than the 
Metropolitan Police Department, operate in D.C. This unique 
structure creates coordination challenges not found in other 
locations.
    My second point is that all participants have not always 
taken a coordinated approach to identifying and addressing 
problem areas that balances competing institutional interests. 
One reason for this is that the costs of coordinating 
activities and taking corrective actions may fall on one or 
more federally funded agencies, while any savings may accrue to 
one or more D.C.-funded agencies, or vice versa.
    In the absence of a single hierarchy and funding structure, 
agencies have generally acted in their own interests, rather 
than in the interests of the system as a whole.
    For example, as shown in table 2, as many as six agencies 
need to be involved in processing a case before an arrested 
person's initial court appearance for a felony offense can 
occur. Unlike many other major metropolitan jurisdictions that 
would rely on written reports and data base entries to decide 
whether to pursue a case, prosecutors in D.C. require an 
officer who is knowledgeable about the facts of the arrest to 
meet personally with them before they determine whether to 
formally charge an arrestee. This meeting is commonly referred 
to in D.C. as papering the case.
    In addition, prosecutors rely on the officers to perform 
various clerical tasks associated with case processing. During 
calendar year 1999, these activities required the equivalent of 
at least 23 full-time officers, ultimately reducing the number 
of officers available for patrol duty by an equal amount.
    Another example lies in the initiatives underway to improve 
the criminal justice system. As of November 2000, the agencies 
involved in the D.C. criminal justice system told us they had 
initiatives for improving the operation of the system, 93 of 
them. We found numerous instances where participating agencies 
did not agree on such fundamental things as initiatives, goals, 
status, starting date, participating agencies, or results to 
date.
    This lack of agreement underscores a lack of coordination 
among the participating agencies that could reduce the 
effectiveness of these initiatives.
    My last point is that the Criminal Justice Coordinating 
Council [CJCC], has been useful and should be continued. CJCC 
is the primary venue in which D.C. criminal justice agencies 
can identify and address interagency coordination issues. Its 
funding and staffing have been modest, about $300,000 annual 
with four staff.
    According to many criminal justice officials we spoke with 
during its nearly 3-year existence, CJCC has had some success 
in improving agency cooperation, mostly in areas where all 
participants stood to gain from a coordinated approach to a 
problem.
    In problem areas where a solution would help one agency 
possibly at the expense of another, CJCC has been less 
successful, mainly because of lack of authority to compel 
agencies to address the issues.
    On balance, however, the CJCC has provided a valuable 
independent forum for discussion of issues affecting multiple 
agencies. We are recommending that Congress consider funding an 
independent CJCC with its own director and staff to help 
coordinate the operations of the D.C. criminal justice system, 
and to require CJCC to report annually to Congress, the 
Attorney General, and the D.C. Mayor on the results achieved 
and the issues that require further attention.
    We are also recommending that participating agencies report 
multiagency initiatives to the CJCC, which would then serve as 
a clearinghouse and highlight those initiatives that warrant 
further discussion and coordination.
    This concludes my oral statement. We would be happy to 
address any questions the subcommittee members may have.
    [The prepared statement of Mr. Stana follows:]

    [GRAPHIC] [TIFF OMITTED] T6090.003
    
    [GRAPHIC] [TIFF OMITTED] T6090.004
    
    [GRAPHIC] [TIFF OMITTED] T6090.005
    
    [GRAPHIC] [TIFF OMITTED] T6090.006
    
    [GRAPHIC] [TIFF OMITTED] T6090.007
    
    [GRAPHIC] [TIFF OMITTED] T6090.008
    
    [GRAPHIC] [TIFF OMITTED] T6090.009
    
    [GRAPHIC] [TIFF OMITTED] T6090.010
    
    [GRAPHIC] [TIFF OMITTED] T6090.011
    
    [GRAPHIC] [TIFF OMITTED] T6090.012
    
    [GRAPHIC] [TIFF OMITTED] T6090.122
    
    [GRAPHIC] [TIFF OMITTED] T6090.013
    
    [GRAPHIC] [TIFF OMITTED] T6090.014
    
    [GRAPHIC] [TIFF OMITTED] T6090.015
    
    [GRAPHIC] [TIFF OMITTED] T6090.016
    
    [GRAPHIC] [TIFF OMITTED] T6090.017
    
    [GRAPHIC] [TIFF OMITTED] T6090.018
    
    [GRAPHIC] [TIFF OMITTED] T6090.019
    
    [GRAPHIC] [TIFF OMITTED] T6090.020
    
    Mrs. Morella. That is pretty succinct for such a full and 
thorough report the GAO did. Thank you.
    It is now a pleasure to recognize Mr. Harlan, who knows 
very much about this whole issue and was responsible for its 
genesis.
    Mr. Harlan. Thank you very much, Madam Chairman, 
Congresswoman Norton. We are delighted to be here today to 
testify before you on this very important issue of coordination 
of criminal justice in our city.
    The Council for Court Excellence has had a mission of 
focusing on the workings of the justice system within the 
Washington area for many years. The Council is a nonprofit, 
nonpartisan civic organization that has worked to improve the 
administration of justice in local and Federal courts related 
to agencies in Washington, DC, for nearly 20 years.
    The Council for Court Excellence is a unique resource in 
our community, bringing together members of the civic, legal, 
judicial, and business communities to work with common purposes 
to improve the administration of justice.
    In March of this year, 2001, the Council for Court 
Excellence completed a 15-month research study under the 
direction of the District of Columbia Criminal Justice 
Coordinating Council. We worked in concert with the Justice 
Management Institute to examine the resource management issues 
within the District of Columbia criminal justice system, with 
special emphasis on criminal case flow management and 
Metropolitan Police Department overtime.
    This project entailed working closely with over 10 separate 
criminal justice agencies that have already been identified 
here this morning. Our formal statement is really grounded on 
the work that study produced, as well as my experience from 
1996, and on.
    In 1996 we founded what we then called the MOU partners, 
which were all of these agency heads, and ran that. I was the 
vice-chairman of the D.C. Financial Authority. In 1998, the MOU 
partner organization became--changed its name; it had the same 
makeup, the same mission, but changed its name to the Criminal 
Justice Coordinating Council.
    Let me say that this report, which is attached to our 
testimony here today, had some very startling findings. We 
found, for instance, during our test period that on average, 
there were 670 police officers in the courthouse a day, off the 
streets, away from community policing; 45 percent of those 
officers were in prosecutional hearings, and 55 percent were 
involved in court hearings.
    That is a lot of police officers off the streets, 
particularly when you consider that 60 percent of the cases 
scheduled for trial during our test period did not go to trial. 
In other words, these police officers were there and not 
called.
    There is a further great difficulty in that, on average, 
six to eight officers were called for each case, but even when 
a case was called, only two would testify. So we have a lot of 
cases not being called, and you compound that, count that up, 
and it is just a huge manpower off the streets and not doing 
police work, as such.
    The core conclusion of the Council for Court Excellence 
research is that the agencies of the District of Columbia need 
to work together to overhaul the case management systems from 
the point of arrest all the way through to the final 
disposition of the case. Unless this happens, this will not be 
able to be fixed. The Police Department cannot fix it by 
itself, and any given agency cannot fix it by itself. They must 
work together.
    Where do we find ourselves today? Well, certainly we 
believe that the principal conclusions of the GAO report are 
accurate and should be adopted. As you know and as you 
mentioned, the city Council has enacted legislation in the 2002 
budget that would fund the Criminal Justice Coordinating 
Council to the tune of $169,000.
    Most of the agencies are under Federal control and were 
federally funded, as has been pointed out several times this 
morning, every now and then I think we have to remind ourselves 
how that came about in 1997. The Federal Government took over 
some of these agencies from the District in exchange for the 
District not receiving $680 million worth of Federal payments.
    We urge the U.S. Congress to enact authorizing legislation 
to create an annually funded independent D.C. Board, the 
Criminal Justice Coordinating Council, for the express purposes 
of encouraging, supporting, and facilitating interagency and 
intergovernment cooperation across the District's criminal 
justice system.
    The proposed council should be comprised of the leaders of 
the many criminal justice agencies; not delegated down to staff 
or lower people, but be comprised of the leaders of the local 
and Federal agencies involved.
    The CJCC should be supported by a staff responsible to the 
Council. Properly funded and organized, we believe that this 
coordinating body can exert substantial peer pressure on member 
criminal justice agencies, both Federal and local, to adopt 
more efficient and effective strategies and policies which 
ultimately will benefit the entire system and, in turn, the 
community at large.
    We recommend that Congress ensure the independence of the 
CJCC through legislation. We urge that you recognize that there 
is an ongoing congressional responsibility to provide annual 
funding and oversight.
    We also believe that time is of the essence. If needed D.C. 
criminal justice reform such as those set forth in our recent 
report are to be addressed, it needs to happen now.
    Madam Chairman, the last point I would like to make today 
concerns how best to assure interagency accountability across 
the District's criminal justice system. Such accountability is 
sorely lacking today, as the GAO study documents.
    The authorizing legislation creating an independent CJCC in 
the District of Columbia, we believe it should specify that the 
CJCC be required to publish an annual public report to the 
District Mayor, the D.C. Council, the Congress, and the 
community at large. The report should be done in the spring of 
each year so that the annual appropriations hearings can be 
influenced.
    The CJCC annual reports should explain what actions have 
been taken over the past year to improve public safety and 
justice, and what are the plans for the next 1 to 5 years. We 
would hope that Congress would use this annual public report by 
leaders of the criminal justice coordinating effort as a means 
of assuring a greater accountability.
    I would be happy to answer any questions that you might 
have.
    [The prepared statement of Mr. Harlan follows:]

    [GRAPHIC] [TIFF OMITTED] T6090.021
    
    [GRAPHIC] [TIFF OMITTED] T6090.022
    
    [GRAPHIC] [TIFF OMITTED] T6090.023
    
    [GRAPHIC] [TIFF OMITTED] T6090.024
    
    Mrs. Morella. Thank you very much, Mr. Harlan.
    I must say, this first panel has moved expeditiously and 
come up with some very specific recommendations which we want 
to explore further.
    I am going to try to keep us to 5 minutes each, each round, 
but we can go back and forth for more than one round.
    I will start off with the GAO, Mr. Stana.
    The various agencies, the Superior Court, Pretrial 
Services, Defender Services, Sentencing and Felon 
Incarceration, Community Supervision, previously funded by the 
District Government, are now funded by the Federal Government 
as a result of the Revitalization Act.
    I want to ask you what the impact has been of this change 
in the criminal justice system. Do you think things are getting 
better, or not? How do you think Congress can help to improve 
the operations?
    Mr. Stana. As was pointed out earlier, the crime statistics 
seem to show that things are going in the right direction. 
Homicides are down, assaults are down, thefts are down, arson 
is down.
    What I don't know is whether this is owing to the 
Revitalization Act and the changes made there. What was called 
for in the act, seems to be moving on schedule, but for the 
purposes of this report, we did not do the work that would 
allow us to answer the question that you asked.
    Mrs. Morella. Could I ask you, the CJCC appears to be an 
important component in the coordination of the operations of 
the D.C. criminal justice system.
    Would you have any comments about whether or not you think 
Congress should fund the CJCC, and what reasons would you have, 
yes or no?
    Mr. Stana. The short answer is yes, we believe Congress 
should fund the CJCC. There are a number of different models to 
use when considering its structure and budget.
    For example, Montgomery County, MD has a CJCC. There is no 
specific funding for it, but rather, the members of the 
criminal justice community there donate staff and time and 
detail individuals to accomplish what the Criminal Justice 
Coordinating Committee there has to accomplish.
    One difference in the District, however, is that you have 
Federal and local funding streams. You have over 30 different 
agencies operating here. There is a blend of interests and 
there is a blend of organizational hierarchies that, frankly, 
exists nowhere else in the country.
    When we discussed the CJCC with agencies involved in the 
D.C. criminal justice system, one thing they pointed out to us 
is that it is extremely important that an organization like 
that be perceived as independent, and the CJCC, under the 
Control Board, was perceived as independent.
    We were told that in order to preserve that independence, 
it was critically important that it not be perceived as an 
instrument of one agency, the District Government or of any 
agency, any member participant.
    Mrs. Morella. You are right, it does pose some incredible 
challenges that other jurisdictions do not have in terms of 
coordination jurisdictionally.
    I noticed also that you did say in your testimony that you 
felt that there should be the annual report. This is exactly 
what Mr. Harlan also stated.
    Mr. Harlan, I particularly appreciate your participation in 
our hearing today. First, I want to thank you for your services 
as the former vice-chair of the Control Board. In that capacity 
you are known to be the driving force of the original 
Memorandum of Agreement Group, the predecessor to the CJCC.
    You also served as the first chairman of the CJCC, which 
was principally established to improve the criminal justice 
system.
    How has lack of funding affected the effectiveness of the 
CJCC? And then, please, get into the concept of Federal 
funding, if you would, sir.
    Mr. Harlan. All right.
    Initially, the CJCC activities were funded through the 
Control Board, as has been pointed out. That was true up until 
I believe this current fiscal year. Each year the amount of 
funding since 1998, and I have been away from it, so I don't 
know the exact dollars--the Control Board had funding in 1999 
and the year 2000, but it is my understanding that those were 
reduced from the budget we had.
    In 1996, 1997, and 1998, we spent a lot of money looking at 
the system early on. One activity that has gone on, and it is 
my understanding it has gone on quite successfully, even though 
the funding in the current fiscal year for the CJCC is zero--it 
has gone on through Federal grants and support. It is this 
system that has been identified, I believe it is called 
Justice. It is based on a criminal justice system that is 
operational in Pennsylvania.
    The system takes these 70--it takes several of these 
systems in each of these stovepipe agencies', if you will, 
computer systems, and overlays new, advanced technology so it 
can reach down and get information to share with other agencies 
and the organization as a whole.
    Well, technology and working-wise, it is an excellent 
system. The problem comes in as far as the voluntary nature of 
it. There is one agency, which is a major agency involved in 
the criminal justice program here in our city, that has opted 
out, decided not to participate. As a result, the system, while 
it will work for those that are participating, there will be a 
big hole. It is that kind of thing that causes major problems 
and restricts even great success from being truly recognized.
    So going forward, it is my understanding that to fund just 
that system, staffing, handling, monitoring the data, making 
sure the security is there and all that, it is going to take 
about $2 million a year. So the $169,000 will not come close to 
even handling that one system.
    Mrs. Morella. I think you said you feel the Federal 
Government should be taking----
    Mr. Harlan. I believe that this is a joint effort and must 
be recognized as a joint effort.
    The local government is proposing local dollars. The 
Federal Government has the lion's share of this. It should put 
up Federal dollars. So with local dollars and Federal dollars, 
I believe the leadership should be determined on an equal 
basis, that sort of thing.
    If it is perceived, as the GAO has pointed out, that one 
group is taking over, it will not be very effective. But if we 
can figure out a way to make it a cooperative organization, 
independent, and not championing one particular agency or 
funding source, I think it can be fantastically cooperative and 
be a model for the country.
    Mrs. Morella. I know my time has expired, so I will now 
defer to Congresswoman Norton. We will be back for another 
round. Thank you.
    Ms. Norton. Thank you, Madam Chair.
    The problem that the GAO is confronted with and that Mr. 
Harlan has elaborated upon is a problem fit for one of my law 
school classes. It is an unprecedented constitutional law 
problem, and I see the problem. I caution us not to simply move 
forward with the kind of normal cause and effect, because I 
don't see the answer.
    Let me address a question to GAO, the GAO representative.
    The responses in the report from the District surely 
require some response. First of all, let me ask Mr. Harlan, 
what agency has opted out of the process?
    Mr. Harlan. The Bureau of Prisons.
    Ms. Norton. One thing this committee could easily do is to 
require that agencies participate in the process. That it seems 
to me could be dealt with. But the responses surely are 
troubling, and require some response from us.
    For example, when I look at the report, that the agencies 
needed to feel ownership of the body in which they operate, 
there was concern about--particularly with agencies that must 
enjoy independence, like the courts, about a superagency over 
them.
    Listen to this, just listen to this, if you are a local 
jurisdiction. The nuance that will be required to fashion 
something is important. Listen to what the report says. 
``Consider requiring that all D.C. criminal justice initiatives 
that could potentially involve more than one agency be 
coordinated through the new independent entity.''
    The city questions, or one of its representatives in your 
report questions, ``Given the interrelatedness of agencies in 
our system, it is difficult to think of any initiative, no 
matter how limited in scope or application, that would not fit 
that definition and require review by that entity.''
    I don't see how you would avoid putting the criminal 
justice system of the District of Columbia under the Federal 
Government, which is precisely what the Revitalization Act 
intended not to do.
    Now, I see the problem of leadership, but I want your 
response to these responses that I found in the report itself.
    Mr. Stana. OK.
    Let me take the second one first, and the second one was 
running the coordination initiatives through the CJCC.
    What we found among the 93 initiatives was that in about 
two-thirds of them, fundamental misunderstandings existed about 
who was the leader of the initiative, what it was intended to 
do, what goals and responsibilities were assigned, and so on.
    What we had in mind here, and what our report is aiming to 
do, is to use the CJCC as a clearinghouse, not as a directive 
body, but as a body that pulls these initiatives in, studies 
them, and points out these kinds of shortcomings to the members 
around the table, to discuss how are we going to address them. 
What can be done to address these disconnects? And that the 
members themselves would say, well, I did not mean that, or 
yes, I could be involved in this, or yes, that is the leader, I 
am not the leader. Let us see if we can measure our goals. It 
is not a directive body, but it is intended to be a 
clearinghouse and a helpful body.
    With respect to trying to Federalize the District of 
Columbia's criminal justice system by having the CJCC federally 
funded, I don't know if that would be the intent of Federal 
funding. I think what Federal funding does is ensure that the 
most participants possible appear at the CJCC table and work 
with the other members of the D.C. criminal justice community.
    Ms. Norton. We are beginning, I think, to focus in on how 
to make this thing work. The word ``clearinghouse'' is very 
important to use.
    Here you have two independent entities. The District of 
Columbia is an independent jurisdiction. When we wrote the 
Revitalization Act, we were at great pains to keep those 
jurisdictions, the Federal Government and the District 
Government, in their independent status.
    Just because somebody is funding something, or just because 
our prisoners go to the BOP, does not change the relationship 
between the District government.
    Yet, you raise a critical point. It seems to me--you help 
me in what you have said. This is an entity that cannot 
function except by consent of the governed.
    Mr. Stana. Right.
    Ms. Norton. It may be in fact possible--and, if I may say 
so, despite what the District said, there is a supremacy clause 
problem. The Mayor and the District of Columbia cannot order a 
Federal entity to do anything. There is still the Constitution 
of the United States, and he does not have that jurisdiction, 
and certainly no agency of the District government has that 
jurisdiction.
    If we are talking about a clearinghouse--that is why I 
think we need to think about this before we decide what we are 
doing here. I would like to see a lot more analysis here.
    If we would talk about a clearinghouse operation with 
matters done by consent, then the funding would not matter, 
because you have already said that these folks are funded now 
by a Federal grant. So the funding is not a problem. The 
problem is leadership. The problem is making sure that every 
agency, BOP and everybody else, understands that it is a 
Federal obligation.
    I would ask the D.C. government to pass a comparable 
statute saying it is the obligation of every D.C. agency to 
fully participate in this matter, and leave it to--here I am 
thinking off the top of my head, based simply on what I have 
heard from you, because I learned a lot from you; and if there 
was failure of cooperation, then the leader, the real leader 
would have the obligation to see to it that particular agency 
in fact fell into line.
    We could get toward something in which everybody maintained 
his sense of who he really is, and yet had an obligation to 
participate fully in this coordination mechanism.
    Mr. Stana. Yes, and that was the goal of our third 
objective.
    What we found when we compiled and analyzed these 93 
initiatives was that, No. 1, this had not been compiled before; 
and No. 2, many of the other participants did not realize what 
the other had thought--what was supposed to happen, or who was 
in charge, and so on. So bringing these kinds of matters to the 
coordinating committee would be very useful.
    Our second recommendation about reporting to the Congress 
and to the D.C. government and others is intended to let the 
funding sources and the hierarchies of each member know what 
has been resolved and what hasn't been resolved.
    As one participant said, sunshine is purifying, and if one 
funding source realizes that, well, my person or my 
organization is not cooperating and I am not happy about that, 
then they can take that individual to task over that and find 
more out about it.
    What we found in talking with the different participating 
agencies is if the Criminal Justice Coordinating Committee 
becomes dictatorial and exercises powers that are inordinate 
with its real responsibilities, that many members would not be 
around that table for very long.
    Ms. Norton. That's right.
    Madam Chair, can I say that one suggestion I would make to 
the Chair is that we might ask some of the distinguished 
lawyers in our own D.C. Bar Association to look more closely at 
this matter, maybe the Council of Court Excellence, so these 
issues we have fleshed out, the consent, the responsibility of 
the leaders of the sectors, the Mayor and whoever would be 
designated for the Federal sector and the clearinghouse notion, 
and that any notion that got put into effect be put into effect 
as a pilot first, because it is so unusual, because it is 
unique, and we would not want to go willy-nilly into something 
that simply did not work for us.
    Thank you, Madam Chair.
    Mrs. Morella. Thank you. We will be discussing that.
    Continuing with our questioning to Mr. Stana, in your March 
2001 report on the criminal justice system, you reported that 
the criminal justice activities in D.C. are not effectively 
coordinated. We have talked about that, longstanding problems 
not addressed.
    We suggest that some of the real causes of the problems are 
the lack of agreeing on the goals of the initiatives and the 
turf issues between participating agencies. I wonder if these 
are the root causes of the problem. Will the establishment of 
the federally funded or in-partnership D.C., Federal, etc., 
funded CJCC address the root causes of the problem?
    Mr. Stana. Our report points out that many of the causes 
for the lack of coordination are systemic: different funding 
streams, different hierarchies. That is not to say these are 
insurmountable. By coordinating activities and having a 
mechanism to coordinate, we can take care of basically the 
three kinds of problems that we service.
    One is the interagency difficulties with the 93 
initiatives, where participants did not know the fundamentals 
llike which agency was in charge and what are the goals, and so 
on.
    The second involved papering. We have discussed the 
papering issue quite a bit in the report. I'm sure you will 
talk about it a lot more on the third panel.
    There are some fundamental issues there that have to be 
dealt with, and they just haven't been, and a coordinating 
mechanism is needed to do that.
    The third involved the Leo Gonzalez Wright case that I 
believe Ms. Norton mentioned, and that is just a series of 
errors that happened over years, that we believe some sort of a 
coordinating mechanism or some sort of a way to discuss 
individual problems would have helped that case considerably.
    Mrs. Morella. That leads--in fact, I think I mentioned that 
case, but that leads to that question of, even if there is a 
Criminal Justice Coordinating Council, when there is a 
stalemate among the members in resolving the problems, as is 
the case now, how do we ensure that the problem is resolved 
correctly?
    Mr. Stana. Well, one of the problems with the current 
coordinating committee is that they could agree to disagree, 
and that was the end of it, and nobody else knew about it. And 
what we're hoping is, that by having a reporting mechanism back 
to the Congress and to the administration and to the D.C. 
government, that by putting a little sunshine on these areas of 
disagreement, the Congress, the administration and the Mayor 
and the city Council would be in a better position to act from 
their viewpoint.
    Mrs. Morella. I'd like to address that very same question 
to Mr. Harlan for any comments he may have on it, how to 
resolve the stalemate.
    Mr. Harlan. Yes. I agree that--and what--our recommendation 
is very similar to the GAO's suggested report, because of just 
bringing the clarity of the sunshine to the issue, sometimes 
the fear of having to stand up and defend some action that an 
agency leader has taken that blocks other agencies, he or she 
would have to stand up and explain that to you if you held 
hearings on it and had a report.
    So we believe that an oversight responsibility is required, 
but I also think that cooperation is the key to this. And 
unless we find a magic cooperation here, as an agency head, he 
or she can find 1,000 ways to block progress if they really 
wanted to. I mean, that's the reality of operational 
leadership. Not that they would but we've all seen it, and if 
the people don't want to cooperate together, it's very 
difficult to make them. It requires sunshine. You give them 
marching orders, and they still don't do it. So they have to 
want to do it, and it has to be a benefit to all.
    Sometimes--it has to be a benefit to the whole system, and 
sometimes my agency may have to take it on the chin a little 
bit. I have to fund something I really didn't want to fund for 
the benefit of the whole system. People have to work together, 
and that, to me, is the critical aspect of this thing, finding 
a joint way for the Federal leadership and the local leadership 
to help these agencies work together and then provide 
accountability, mandatory accountability. Maybe it's you or--
reaching an agreement with the local leadership that you will 
jointly oversight. I don't know. But something of that nature 
is going to be required.
    Mrs. Morella. Which is another reason why I note that both 
of you have stressed the leadership quality--leadership----
    Mr. Harlan. That's right.
    Mrs. Morella [continuing]. Commitment, working together.
    Well, we'll continue to discuss that.
    I think I have another minute or a minute and a half left. 
So to Mr. Harlan, we discussed this in our opening comments, 
but in the recent study on case processing and the use of 
police resources, it was reported that $1.5 million in overtime 
was paid to offices who had to go to the prosecutor's office to 
swear legally that reports they had filed were true, and you 
gave us some incredible statistics about the kind of time 
that's spent, you know, in the courtroom by police officers. 
What do you believe is the greatest impediment to addressing 
the longstanding problems of case processing and case overtime?
    Mr. Harlan. Let me--if I may, just to make sure I've got my 
good adviser here, Sam, would you help me with that, please?
    Mr. Harahan. I'll be happy to. I think your biggest 
impediment is tradition. They've always done it one way. 
They're going to be very reluctant to change. We documented 
that 25 or 30 other urban jurisdictions do not require the 
police officer to come the next morning to eyeball the 
assistant U.S. attorney or the prosecuting attorney. We've 
always done it one way.
    There will be 40 reasons given to you as to why the U.S. 
attorney's office possibly can't do this. They will do a pilot 
project, four or five cases in the next 6 months. But the truth 
is, in major cases there's going to be a great reluctance to 
change the way it's being done today.
    Mrs. Morella. We really can't accept the way it's being 
done today. And I want to get into----
    Mr. Harahan. It's not rocket science, ma'am.
    Mrs. Morella. Right. Why do you think the papering issue 
that has been posed, why has it festered over a decade without 
being resolved? Is that also traditional?
    Mr. Harahan. Well, I think it's the point that the GAO are 
making about the lack of incentives that exist in the system 
today for people to change the way in which they are 
practicing.
    Mrs. Morella. We would kind of like to look to what these 
incentives might be. But I'm going to defer to Ms. Norton and 
then pick up that great question with you again before we 
terminate the panel.
    Ms. Norton. Just to comment on Mr. Harlan's notion about 
cooperation being the key to this coordination notion, and of 
course it is, because this is--we know that there are systems--
when there are problems, you can put people in charge if you 
have compulsion all the way down the line, but that is not our 
system. To make you understand what I mean, when Russia was 
part of the Soviet Union, there was very little AIDS. There was 
very little crime. Everybody had health care. There was no 
Russian Mafia. When freedom came, you got the same kind of 
chaos you have in democratic societies.
    In thinking through this system, we've got to assume the 
freedom of all the parties involved and then ask ourselves, how 
do you get people who are free actors to do the right thing on 
time? That requires deep thought. We could put the Federal 
Government in charge. That wouldn't do you any good in the 
District of Columbia. It wouldn't do any good anywhere in the 
United States, but especially in the District of Columbia would 
it not do you any good, not given the resentment in this city 
to having us in charge, this committee, all of the Congress in 
charge and then for the Congress to say, here's an entity and 
you're in charge. That's why I'm very pleased at the way you 
describe how this could be put together. I think it may well 
take Federal legislation, but I think it's also going to take 
district legislation.
    I'd like to ask about the problem that has troubled me ever 
since I've been in Congress and the one that the GAO shed 
special light on that Mr. Harahan just spoke about, and he said 
tradition is the reason. Here is a classic case of where 
everybody is in charge and therefore nothing happens, and this 
is why--and I want to reiterate what I indicated in my opening 
statement, 60 days, everybody, 60 days, try to do it in less, 
have--this is a test as to whether consensual cooperation can 
work within 60 days.
    The U.S. attorney, the courts and the police, marshals may 
be involved and there may be others, must have a new system, a 
proposal for a new system. May I suggest that you might 
consider taking it off the shelf from the many jurisdictions 
that know how to do this?
    The GAO has indicated some of the things that could be 
done. The report would have been more helpful to me if there 
was some indication of who in the region, for example, has 
learned to do this. And the first thing I would ask is that the 
city and Federal agencies involved not to invent something from 
scratch but to look and see how it is done first in the region 
and perhaps in some even better way nationally.
    Mr. Stana. Ms. Norton.
    Ms. Norton. Yes. Please respond.
    Mr. Stana. May I add something there? I think tradition 
plays a big part in this, and I think the cost does. And you 
talked about the papering process, and we need to get on top of 
that issue somehow.
    Simply put, there are eight steps in the papering process 
that involve D.C. policemen, and the police who are trained to 
be on the street to fight crime. Of those eight steps, the 
majority are strictly clerical, making copies, making file 
folders, and so on. That in our view is not what policemen 
should be doing, but in order to change that some other agency 
has to assume the cost of doing that and it's not going to be 
the police. So, yes, there's tradition involved, but there are 
other things involved, and we think that cost is a big factor.
    Ms. Norton. So who assumes the cost of doing that?
    Mr. Stana. The police make the copies, the police assemble 
the file folders, in addition to speaking with the U.S. 
attorneys and screening officers. Now, if the policemen weren't 
to do that, arguably it would fall on the U.S. attorney's 
office to do those clerical tasks, or it would fall on the 
court to do those clerical tasks. But why you have a trained 
police officer earning overtime to do those kinds of clerical 
tasks needs explanation.
    Ms. Norton. If you forgive the pun, that's criminal. When 
you consider what crime rates in the District of Columbia are 
and the way in which our police are overtaxed--I mean, I've 
gotten a bill that has gotten through that is being implemented 
now to give assistance to the District of Columbia police and 
Federal police officers precisely because they are so 
overtaxed. I am very pleased with how that is working, but 
those people, by the way, are going to be bringing in--what do 
we call them--arrested people as well. Let's see what happens 
when the Federal police are confined to clerical work.
    But this is very--the cost issue--what you've indicated is 
it's not just turf; it's cost. And so that's going to make it 
really difficult in these 60 days. And I don't care how 
difficult it is. We've got to start somewhere. And I said a 
proposal. I didn't say in 60 days you have to have something in 
place, but we really do have to begin this process, and perhaps 
the Chair will find when she receives it that she will want to 
have hearings at some later date, but we've got to get 
something in place.
    Could I ask whether in this--we've had difficulties in 
technology in the district. You speak to some of the technology 
problems here. It seems to me this becomes really difficult, 
then, if the District is having trouble, not so much with its 
technology but with the interplacing of the systems within the 
District of Columbia, do you believe that working through the 
criminal justice--some kind of coordinating mechanism, this 
interface--this now double interfacing will take--can be done, 
or is that going to require a whole new project, a whole new 
way of dealing with technology once the coordination mechanism 
is in place?
    Mr. Jenkins. Well, let me answer that. I think there are a 
couple of things there. I think it has worked relatively well 
to date, partly, as we point out, because in the justice system 
most of the participants view that they stood to gain from it 
in terms of access to information that would help them do their 
job better.
    I think to date one of the reasons it's succeeded is 
because of the leadership of the person on Criminal Justice 
Coordinating Council is perceived by those people who he's 
working with as being competent, knowing what he's doing, 
listening to people, listening to concerns that the 
participants have. He has not tried to dictate a solution. He's 
tried to listen to things, identify what's doable in the short 
term, which is one of the reasons they have sort of chosen the 
solution they have.
    So I think it's possible to use the Criminal Justice 
Coordinating Council for that, and this particular effort, has 
shown that it can work if it has certain conditions. But, as 
Mr. Harlan pointed out, if somebody says, there's not enough 
benefit to me to participate and I'm opting out, then you do 
have a big gap; and, therefore, it reduces the benefits that 
the other participants get out of it when you have a major 
player that opts out of it.
    Mrs. Morella. We have other questions we'd like to ask you, 
but I am most concerned about our time and the fact that we 
have two other panels. We would like very much to submit 
questions to you within the next few days for your responses.
    I want to thank you very much; and I want to thank you, Mr. 
Stana. I want to thank your colleagues, Mr. Jenkins and Mr. 
Tremba. I want to thank you, Mr. Harlan; and I want to thank 
Mr. Harahan for being here. We value very much your statements; 
and we'll be following up with you, too.
    So I'll ask the second panel, then, to come forward, too.
    Margret Nedelkoff Kellems, who is the Deputy Mayor for 
public safety and justice, the government of the District of 
Columbia; the Honorable Kathy Patterson, who is the Chair of 
the Committee on the Judiciary; and Rufus King III, who is the 
Chief Judge, Superior Court of the District of Columbia.
    Maybe as you get to your designated spots, you could 
continue to stand so I can administer the oath. If you would 
raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. I heae affirmative responses, which will be 
so recorded. Again, we'll try to keep to the 5-minute rule.
    We'll start off with you, then, Ms. Kellems. Thank you very 
much for coming, and thank you for being patient, too.

   STATEMENTS OF MARGRET NEDELKOFF KELLEMS, DEPUTY MAYOR FOR 
   PUBLIC SAFETY AND JUSTICE, GOVERNMENT OF THE DISTRICT OF 
   COLUMBIA; KATHY PATTERSON, CHAIRPERSON, COMMITTEE ON THE 
 JUDICIARY; AND RUFUS KING III, CHIEF JUDGE, SUPERIOR COURT OF 
                    THE DISTRICT OF COLUMBIA

    Ms. Kellems. Good morning. Good morning, Chairwoman 
Morella.
    I'm Margret Kellems, the Deputy Mayor for public safety and 
justice. I appreciate the opportunity to testify before you 
today on the coordination of criminal justice activities in the 
District, particularly the past successes and future plans of 
the Criminal Justice Coordinating Council. Mayor Williams is a 
staunch supporter of the CJCC, and as Deputy Mayor for public 
safety and former executive director of the CJCC, I am 
especially committed to seeing the organization become an 
institutionalized part of the District's justice system.
    I am intimately familiar with how the CJCC can be and in 
fact has been an effective tool for integrating the activities 
of our fragmented justice system. Background on the evolution 
of the CJCC from 1996 to the present is found in my written 
submission. My written testimony also includes greater detail 
on the staffing and organization during fiscal years 1999 and 
2000.
    For now, I would like to briefly discuss some of the CJCC's 
successful projects and the city's plan for continuing those 
successes in fiscal year 2002.
    The mission of the CJCC is to foster systemic change in the 
justice system, serving as a forum to identify issues and their 
solutions, proposing actions and facilitating cooperation that 
will improve public safety and the related criminal and 
juvenile justice services for the District of Columbia, 
residents, visitors, victims and offenders.
    During its brief existence, the CJCC has undertaken a 
number of ambitious, successful projects. I will briefly 
highlight two to demonstrate some of the valuable 
accomplishments of the organization, accomplishments that I am 
quite certain would not have been achieved without the CJCC's 
existence.
    Each criminal justice agency in the District relies on the 
other agencies for basic management information. However, the 
current information systems maintained by the justice agencies 
within the District are not integrated. It is difficult and in 
some circumstances impossible to access necessary information 
in a timely manner.
    In 1999, the CJCC envisioned a solution to this problem, 
the District of Columbia Justice Information System, to serve 
as a central information-sharing facility. In partnership with 
the District's chief technology officer, the CJCC undertook to 
implement this solution; and in December 2000, the proof of 
concept for the system was completed for approximately 
$750,000, a fraction of the cost of similar systems in other 
jurisdictions. The project is now in phase 2 and will be funded 
with Federal grants through fiscal year--I'm sorry, fiscal year 
2001 and fiscal year 2002.
    A second project, which came to fruition just last month, 
is a pilot project called Papering Reform 2000. This project, 
under way in three police districts, will get more officers on 
the street and enhance the quality of prosecutions by 
eliminating some of the administrative duties currently 
required of police officers.
    For example, officers will no longer be required to appear 
in person to present charges to a prosecutor before a decision 
is made on pursuing a case. Instead, the officer can swear to 
the charges in their district station or other unit of 
assignment and return to patrol. The corporation council 
prosecutor will then go forward with the charging process 
without the officer being present.
    The CJCC supported this project through 1999 and 2000. The 
Metropolitan Police Department and the corporation counsel have 
sustained this valuable project since the CJCC lost its full-
time staff. When the program is fully implemented, District 
residents will enjoy the benefit of greater police presence on 
the street as a result of these efforts.
    These are but two of the many projects supported by the 
CJCC. Experience has shown us that without this neutral body, 
without resources dedicated to identifying and proposing 
solutions to problems of coordination among criminal justice 
agencies, systems improvements in the District's justice system 
would be difficult to achieve.
    Consequently, the Mayor has fully supported the activities 
of the CJCC and believes it is in the interest of the residents 
of the District of Columbia to institutionalize this body and 
bolster its efforts. The fiscal year 2002 budget proposed by 
the Mayor and approved by Council includes, as you noted 
earlier, $169,00 in earmarked resources for staffing the CJCC.
    But, additionally, the Mayor is committed to providing 
additional resources through block and formula grant funding to 
support specific projects, just as were used with the 
Information Technology Development Project and the Council for 
Court Excellence report, both funded by Federal grant dollars. 
As has been the practice, member agencies will be asked to 
devote staff to specific projects as needed. We believe that 
these resources will allow the CJCC to continue its current 
projects and expand its efforts in fiscal year 2002.
    Additionally, related legislation establishes the CJCC 
formally and codifies its duties to coordinate crime control 
activities, identify systemic issues and develop solutions, 
participate in grant planning and establish and report on 
measurable goals and objectives for system improvement. In the 
next 60 days, the CJCC will conduct planning sessions to 
identify the priority project areas for the coming fiscal year.
    Additionally, during these planning sessions, the group 
will be able to consider and clarify the member's obligations 
to the organization and its projects. If necessary, the CJCC is 
prepared to further define the organizational structure and 
administration, for example, by creating a separate agency for 
staff support, if it is determined that would best serve the 
interests of autonomy and independence.
    The CJCC can and should continue to serve as a mechanism 
for identifying problems, developing the solutions and imposing 
accountability for the results that our citizens deserve. With 
the support and cooperation of all of the local and Federal 
partners, I am confident that fiscal year 2002 will prove to be 
an effective and productive year for the Criminal Justice 
Coordinating Council and for the citizens, visitors, victims 
and offenders in the District of Columbia.
    Thank you again for this opportunity. I'd be happy to 
answer your questions.
    Mrs. Morella. Thank you very much, Ms. Kellems.
    [The prepared statement of Ms. Kellems follows:]

    [GRAPHIC] [TIFF OMITTED] T6090.025
    
    [GRAPHIC] [TIFF OMITTED] T6090.026
    
    [GRAPHIC] [TIFF OMITTED] T6090.027
    
    [GRAPHIC] [TIFF OMITTED] T6090.028
    
    [GRAPHIC] [TIFF OMITTED] T6090.029
    
    [GRAPHIC] [TIFF OMITTED] T6090.030
    
    [GRAPHIC] [TIFF OMITTED] T6090.031
    
    [GRAPHIC] [TIFF OMITTED] T6090.032
    
    [GRAPHIC] [TIFF OMITTED] T6090.033
    
    Mrs. Morella. Now Councilwoman Kathy Patterson.
    Ms. Patterson. Thank you very much, Congresswoman Morella, 
Congresswoman Norton.
    I am Kathy Patterson; and, since January, I have been 
chairperson of the D.C. Council's Committee on the Judiciary 
with oversight responsibility for the major public safety 
agencies and criminal justice policy in the District.
    I appreciate the opportunity to comment today on the report 
by the GAO and on prospects for improving criminal justice 
coordination through the work of the Criminal Justice 
Coordinating Council. I would like to give you an overview on 
legislative actions taken recently by the Council and also some 
major issues pending before the Judiciary Committee.
    There are two general themes that I would bring before you 
today--the strong need for collaboration among Federal and 
local partners and the need also to review certain governance 
issues that affect partner agencies within the CJCC reflected 
in legislation before the District Council.
    As has been mentioned, the District Council recently 
approved the Mayor's proposal to provide funding in fiscal year 
2002 and also to approve additional language spelling out the 
responsibilities and functions of the CJCC.
    I would like to highlight two of the cross-jurisdictional 
issues that require the collaboration of member-partners. 
Issues of this nature make the case for continuing efforts to 
sustain and enhance the work of the CJCC.
    The first is the issue of court overtime, researched most 
recently by the Council for Court Excellence, and those 
findings were shared with you earlier this morning.
    I would only add that court overtime is not a new problem. 
The Judiciary Committee budget report, which you have received, 
provides a summary of earlier reviews of police department 
overtime issues.
    One such review that I found particularly disturbing was a 
1993 report by the Court Liaison Division detailing nearly 300 
court appearances by police department officers that supposedly 
occurred after charges were dismissed. These appearances were 
nevertheless compensated based on reports filed by officers and 
corroborated by assistant U.S. attorneys.
    This particular finding I mention today because it 
underscores the fact that, while policy and procedure reforms 
are needed and can be advanced by the CJCC, also necessary are 
good management and vigilant oversight by responsible agency 
leaders.
    The second example of the kind of systemic issue that 
requires shared evaluation and coordinated action is one 
mentioned by Mrs. Norton, the placement of detention facilities 
serving the District's criminal justice population, both 
pretrial detainment and halfway houses for those released from 
prison.
    The successful reintegration of individuals returning to 
the District from Federal prison is likely to be more or less 
successful, depending on the kind of transition opportunities 
that policymakers provide and fund. How and where we locate 
pretrial detainment and halfway houses for released felons 
requires coordination by local and Federal entities. It also 
requires a healthy dose of public education on the need for and 
merits of detention and a similarly healthy respect for and 
acknowledgment of the needs and concerns of residents in 
District neighborhoods on the part of both local and Federal 
partners.
    I'd like to comment on the specific policy recommendations 
made in the GAO report, specifically that the Congress enact 
legislation to create, define and fund the CJCC. The GAO report 
does note the CJCC has provided a valuable, independent forum 
for discussions of issues affecting multiple agencies. I would 
suggest, based on that, that the CJCC is not broken and 
therefore does not need a Federal fix. Coordination and 
collaboration occur when equal partners agree to coordinate and 
collaborate; and, as has been noted in the previous panel in 
the discussion, mandates have questionable value in such a 
context.
    At the same time, I think the GAO's suggestion that the 
CJCC have distinct reporting requirements is useful, and I 
foresee adding reporting requirements to the Council language 
when we revisit this issue in June. Reporting can keep you 
informed and can also provide a check on the performance of an 
entity that will again be receiving District taxpayer dollars.
    It's my view that the District dollars earmarked for the 
CJCC in fiscal year 2002 represents a basic level of support 
that we can sustain. At the same time, when equal partners come 
to any table, it is useful for them to be equally vested; and, 
for that reason, I would suggest that the Federal member 
agencies provide a modest sum toward the operation of the CJCC 
and would recommend that the fiscal 2002 budgets that the 
Congress enacts for the Federal member agencies incorporate 
such modest sums. This is an issue on which the D.C. Council 
has not advanced a view, and I therefore speak for myself.
    There are two other issues touched on by the GAO report 
that have been addressed by the D.C. Council in the Budget 
Support and Budget Requests Acts.
    First, we approved a line item of $100,000 in the 
Department of Corrections' budget to support the Corrections 
Information Council called for by the Revitalization Act in 
1997. In addition, I am pleased to say that we are moving 
forward with names to populate that Council, and I hope to see 
the CIAC in place over the summer and able to hire professional 
staff this fall.
    There's a second issue that derives from the 1997 
Revitalization Act and is reflected in the Budget Request Act 
that the Congress will be receiving. As you know, this law 
sought to transfer financial responsibility for certain State-
like functions from the District to the Federal Government, 
including the financial responsibility for incarcerating 
convicted District felons. The Council is asking that the 
Congress revisit this issue and clarify that, in fact, the 
Bureau of Prisons will pay the full cost for convicted felons, 
which is not the case today.
    There are other major legislative issues pending before or 
anticipated by the Council of the District of Columbia. Very 
briefly, one has to do with local selection of judges. A second 
has to do with an election of a local attorney general. These 
two will be the subject of a hearing shortly.
    A third piece of legislation I anticipate we will shortly 
have before us would be to comment on Judge King's plan to 
strengthen the family division of the D.C. Superior Court, and 
I look forward to being able to share with the Congress the 
views of the D.C. Council.
    Finally, the Council has before it legislation introduced 
last week to create a centralized, highly trained, 
competitively compensated Office of Administrative Trials and 
Hearings, similar to a panel that was put in place in the State 
of Maryland in 1990.
    I appreciate having this opportunity to appear before you, 
look forward to working on these joint issues, and I would be 
happy to answer any questions. Thank you.
    Mrs. Morella. Thank you, Councilwoman Patterson. You 
certainly got through a lot of material, and I know there's 
even a lot more here in the written testimony. I appreciate 
that.
    [The prepared statement of Ms. Patterson follows:]

    [GRAPHIC] [TIFF OMITTED] T6090.034
    
    [GRAPHIC] [TIFF OMITTED] T6090.035
    
    [GRAPHIC] [TIFF OMITTED] T6090.036
    
    [GRAPHIC] [TIFF OMITTED] T6090.037
    
    [GRAPHIC] [TIFF OMITTED] T6090.038
    
    [GRAPHIC] [TIFF OMITTED] T6090.039
    
    [GRAPHIC] [TIFF OMITTED] T6090.040
    
    [GRAPHIC] [TIFF OMITTED] T6090.041
    
    Mrs. Morella. Judge King, we're pleased to hear from you, 
sir. Thank you for being here.
    Judge King. Chairwoman Morella, Congresswoman Norton, thank 
you for the opportunity to discuss the coordination of criminal 
justice activities in the District of Columbia among our 
several agencies.
    Over the past several years, the Criminal Justice 
Coordinating Council [CJCC], has provided a valuable forum for 
discussion of criminal justice issues in the District and has 
fostered a spirit of cooperation which has enabled it to 
accomplish several successful projects and initiate others. The 
key to the past successes--and I won't enumerate them in view 
of the lengthy discussion of them before me this morning--has 
been the voluntary cooperation among the independent agencies.
    Moreover, the interests of justice demand autonomy for many 
of the criminal justice agencies. For public defenders to 
function effectively, they must be independent of police and 
prosecutors. Requiring the courts to seek approval from the 
Mayor or another agency for projects and initiatives, should 
the CJCC be funded through the District, could undermine the 
crucial independence of the District's judiciary.
    The Superior Court strongly recommends a continuation of 
the CJCC as an organization of independent criminal justice 
agencies, financed to provide staff and resources for 
interagency initiatives.
    We envisage the CJCC as an independent agency with an 
executive director selected by the CJCC members and then a 
staff. The executive director would seek grants for system wide 
projects and administer appropriated funds for criminal justice 
initiatives.
    The executive director would also provide annual reports to 
the CJCC and to Congress and the city, the Mayor and the city 
Council on accomplishments, progress and areas where 
improvement is needed. Placing this responsibility on the 
executive director preserves the principle of separation of 
powers within the District government and the independence of 
local and Federal agencies in the criminal justice system.
    While the CJCC would continue to manage funding for some 
projects itself, it would also coordinate budget requests from 
the various funding authorities for projects whose costs and 
benefits fall unevenly among different criminal justice 
agencies. For example, where costs of procedures to benefit the 
Metropolitan Police Department,with reduced overtime expense 
might fall on the U.S. attorney's office, the CJCC would work 
to strategize the budget requests, so that the entire criminal 
justice system could realize savings.
    This potential for system wide gains without 
disproportionate costs would provide the incentive needed for 
criminal justice agencies to work more cooperatively together 
to resolve issues for which solutions have proven elusive in 
the past.
    In summary, the court believes the Criminal Justice 
Coordinating Council is an invaluable forum for discussion and 
interagency problem solving. The essential feature for its 
success has been the autonomy of the criminal justice agencies. 
The court strongly supports continuing an association of 
independent criminal justice agencies with the resources to 
staff projects and launch new initiatives.
    Thank you for the opportunity to comment on these important 
issues, and I would welcome any questions.
    Mrs. Morella. Thank you, Judge King; and thank the three of 
you for your testimony.
    [The prepared statement of Judge King follows:]
    [GRAPHIC] [TIFF OMITTED] T6090.042
    
    [GRAPHIC] [TIFF OMITTED] T6090.043
    
    [GRAPHIC] [TIFF OMITTED] T6090.044
    
    Mrs. Morella. It's great to have the three of you together 
at the table, too, because there is some differences of opinion 
with regard to the CJCC, whether it should be funded, how to 
keep it independent, if it should in fact be totally 
independent.
    I guess I would ask you, Judge King, how should CJCC be 
funded in order to maintain its independence? Should there be a 
partnership? Should there be funding through the Mayor's 
office? I mean, the Council has, as was mentioned by 
Councilwoman Patterson, feels that the $169,000 would be 
adequate, and it should be totally through the local office, 
and there is no need for the CJCC. Would funding by the 
District government or other participating agencies affect its 
independence?
    Judge King. In my view, without having really thought 
through the mechanics of how it might be funded, I think in 
general it would be better to have it come through the city. 
But less important than the actual mechanism for the funding is 
that the funding come not encumbered by any kind of 
governmental or bureaucratic strings. In other words, I fully 
support the notion that there should be accountability through 
an annual report. And that obviously is going to play out in 
the discussions here, whether through the agencies or directly 
through the Federal Government in funding discussions for that 
year.
    But the most important thing is that the CJCC itself remain 
an autonomous sort of federation-like council; and where the 
funding comes from is less critical, in my view.
    Mrs. Morella. Have you looked at the amount that might be 
necessary to adequately----
    Judge King. I think $169,000, I believe it is, is certainly 
a good start. It's going to take more than that, in my belief. 
It should be--the core funding to operate the CJCC should 
remain rather modest. What will drive it up somewhat is the 
funding necessary for projects.
    For example, the justis system needs--and I can provide 
accurate figures, which I do not have at the moment, if that's 
of interest, but it will need at least several millions more in 
order to complete the phases 2 and 3 to bring all the agencies 
in and to fully enhance the data-sharing capabilities that we 
contemplate. So I think the funding to operate the CJCC is 
rather modest, more than is out there now but rather modest. 
The funding for particular projects or initiatives may go up 
from there, but obviously would be planned as we go along.
    Mrs. Morella. Thank you.
    Let me ask Ms. Kellems how many meetings there have been of 
the CJCC and who the current Chair is.
    Ms. Kellems. The current Chair is Mayor Williams. There 
have been--since the beginning of the fiscal year, which was 
October 1st, I believe there have been three. I'm not certain 
about that. It should be a monthly occurrence. It was not the 
first couple of months of the fiscal year, and I believe there 
have been three.
    Mrs. Morella. There have been three since----
    Ms. Kellems. Since----
    Mrs. Morella. Since October----
    Ms. Kellems. Since we lost the----
    Mrs. Morella. Have the principals been showing up? We heard 
from our previous panel about the need for the leadership.
    Ms. Kellems. Yes, ma'am. They always have. One of the best 
characteristics of the CJCC has been the commitment of the 
principals themselves, with a few exceptions. There's--some of 
the members are a little less interested in appearing every 
single time, but a vast majority of the time it is every member 
who appears.
    Mrs. Morella. I guess to all of you, should the CJCC have 
the ability to compel the submission of information from the 
member agencies?
    Judge King. No, in a word. The system that we have--for 
example, in the data-sharing system, what we have done is to 
invite participation. That's not to say that there shouldn't be 
compulsion, perhaps, to participate, but if it's a particular 
agency that is not participating, the political and 
bureaucratic access to that agency ought to be the means by 
which compulsion takes place.
    So if, for example, it is an agency that's under the 
command of the Mayor, it would be to the Mayor to reach out to 
his agency head and say ``You need to participate in this,'' 
rather than make the CJCC a compulsory forum which would then 
lose its strength of providing a forum for a free-ranging 
discussion of initiatives and approaches and preparing 
initiatives with the best kind of buy-in and voluntary 
participation.
    Mrs. Morella. Just--my time has expired, so just a yes and 
no from Councilwoman Patterson and Ms. Kellems on whether or 
not the CJCC should have the ability to compel information----
    Ms. Patterson. Should not have it statutorily but should 
have sufficient skill to be able to compel partners to 
participate.
    Mrs. Morella. That's a good answer.
    Ms. Patterson. That's the answer.
    Mrs. Morella. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mrs. Morella.
    Yes, I recognize that all kinds of legal issues could be 
raised by compulsion to share any and all information in a 
criminal justice system.
    I do want to take note of part of Ms. Patterson's testimony 
in which she indicates that, despite the Revitalization Act--
and I'm going to say despite some urging here on my part--there 
remains a large inequity embedded in that act that has 
defunding implications for the District of Columbia, and that 
is when an inmate becomes a Federal prisoner.
    Now, you know this notion of making the District government 
spend--of saying--of taking credit for taking over these 
functions, now we--you know, big, big, big Federal Government--
now we have all the responsibility for paying for these 
prisoners while saying, well, not really, not until they've 
been designated a Federal prisoner, not until we found a bed 
for them. That--considering that they're now going over to the 
BOP, now it might not be so bad.
    What I would ask this committee to look closely at is that 
if, since felons are facing additional charges, then the 
District of Columbia is required to pay for that inmate to 
remain in the District of Columbia. That is at cross-purposes, 
indeed that is in conflict with the Revitalization Act, and I 
would like--I wonder if either of you have any information on 
the cost to the District of Columbia of that part of Mrs. 
Morella's testimony on page 5, the designation, retaining 
control and, therefore, containing--you don't so much contain 
control. What you do is contain cost control.
    Ms. Kellems. I don't have information on the cost with me. 
I'm happy to provide that to you.
    On the next panel, I think John Clark, the D.C. Corrections 
trustee, will also address a different organization called the 
Interagency Detention Work Group that is working on 
specifically that problem to try to minimize the amount of time 
and the cost associated--that the District continues to bear 
before they're designated.
    But I agree with you. It's not working the way it is right 
now, and the District is bearing a disproportionate share of 
the cost.
    Ms. Patterson. My recollection is the dollar figure is 
somewhere in the range of $20 million; and, again, the issue is 
that these decisions are not ours to make. If someone violates 
parole or if the U.S. attorney wants someone held for some 
reason, they're not--those decisions to incur the cost are not 
the District's to make.
    Ms. Norton. So there's nothing the District can do but pay 
the piper. We've got to do something about that. It's just not 
fair. You can't take it over and then continue to give us 
costs.
    What issues--first of all, I note that the CJCC is not now 
funded. What issues--could you give me examples of issues that 
are under consideration by the CJCC at the present--at this 
time?
    Ms. Kellems. I will speak a little generously for the rest 
of the group.
    I would imagine that several issues that will continue to 
be of concern would be substance abuse treatment for folks in 
the justice system. Treatments are--drug abuse and substance 
abuse have continued to be an enormous driver of crime and 
something the CJCC has really struggled with, made some 
progress with in the last couple of years but hasn't been able 
to give as much coordinated attention to. Officer time in court 
is certainly one of the highest priorities. It's part of a 
larger issue that the CJCC grapples with, which is the resource 
drain on all of the agencies, not just the police department.
    Ms. Norton. So what you're giving me is an agenda. I'm 
asking for issues now in the process of coordination.
    Ms. Kellems. I'm sorry. Ones we are currently working on?
    Ms. Norton. Uh-huh.
    Ms. Kellems. The several large ones would be the court 
calendaring issue that relates to police overtime as well. The 
technology integration is also another one that we're actively 
working on.
    Ms. Norton. Go ahead, please. I don't want to stop you.
    Ms. Kellems. We continue to focus on the management of 
pretrial offenders, particularly halfway houses. There's a 
whole range of issues surrounding that, and a group of people 
continue to work on that.
    Those are three of the primary ones.
    Ms. Norton. But there is no paid staff for the coordination 
council as such. So people simply borrow staff, I take it, or 
use their own staff?
    Ms. Kellems. We use our own staff. There is one staff 
member who is paid by grant who manages the technology piece. 
He was paid by a grant before as well. There's a staff member 
detailed from the Metropolitan Police Department that also 
works on the technology piece. The rest of the staff is the 
staff of the agencies that continue to work on projects.
    Ms. Norton. Well, I ask the question, because, first, I 
want to thank Ms. Patterson, because Ms. Patterson has sent a 
letter. She's a member of the Council. I don't even think she 
would be a member of the coordinating group, but on her own 
initiative she has done something that it seems to me the CJCC 
should have done.
    She has sent a letter, and I want to thank her for it here, 
to ask for all the representatives--I have her letter of May 
4th to one of the representatives from the court services to 
ask them--now, here's a member of the city Council having to do 
this, and she's sending this to Federal agencies as well, of 
course, as to District agencies, asking them to meet on 
Thursday the 24th in order to discuss the detention issues, 
precisely the halfway house issues that I mentioned in my 
opening statement.
    These issues are flaring--and I know Ms. Kellems and I have 
had numerous discussions about them, and I know of your concern 
to get moving on this, but it is some indication to me that, if 
the Coordinating Council exists, it must exist on an ad hoc 
basis. Because if there was any issue that a member of the 
Council should not have had to coordinate but should have been 
coordinated under the Council, surely it would have been this 
issue where there is no neighborhood in the District of 
Columbia now that wants to accept halfway houses. And your 
crime rate, despite anything that our police chief can do, is 
just going to go up, because these are the people--the 
residents of our city who are most inclined to commit crimes if 
they are left on their own without any help.
    So I don't know why this is being done by a Council member, 
except she saw the need--she sits on the Council and sees the 
problem, but it concerns me that it's not a problem on the 
front of the agenda for the Coordinating Council.
    Ms. Kellems. That is a very good example of what I think 
the panel before us and the panel after us will also focus on. 
That is an interagency multijurisdictional problem that 
requires someone who can focus across all of the agencies. 
There are individual pockets of activity related to halfway 
houses that will involve one or two people, and they try to put 
staff on it. But each of the agencies is responsible for their 
own individual mission, and that's what they tend to go back 
to--what is my role in this. They all recognize that there is--
--
    Ms. Norton. So you tell me the Coordinating Council still 
exists. So if it still exists, there ought to be some mechanism 
that by now would have pulled these agencies together.
    Ms. Patterson, do you have anything to----
    Ms. Patterson. I would just say I appreciate you bringing 
this up, but a year ago or a year from now this briefing that 
you mention on May 24th probably could have been a briefing 
between the CJCC and members of the D.C. city Council who are 
policymakers who need to be up to speed on these issues. And 
it's the fact of the lack of staff and the lack of regular 
meetings and so forth for this interim before we get up and 
running fully again that caused it to be generated by me but 
knowing full well that it's primarily CJCC members that we're 
inviting to the briefing.
    Ms. Norton. Well, you know, I can only thank you for taking 
up the slack.
    May I ask you, Ms. Patterson, first if you know why the 
control board did not fund the CJCC in its own 2001 budget, 
since it was still had jurisdiction over your budget, and why 
you believe that $160,000 was the appropriate amount.
    Ms. Patterson. I do not know why the control board did not 
fund the CJCC a year ago, and I can also not explain why the 
Council and Mayor did not take the initiative a year ago to 
fund it as we are doing now. I wish we had done so. That's my 
20/20 hindsight speaking.
    I think the $169,000 that the Mayor proposed and that the 
Council affirmed is basically seen by me anyway as seed money 
and the District's share. It would be my hope that other 
partner agencies could either provide some additional funding 
or, as has been mentioned, project funding on a per project 
basis. I think we could use a larger dollar figure, but I think 
that was viewed as the District's contribution at this point.
    Ms. Norton. Could I ask the opinion of each of you on the 
kinds of things we're beginning to flesh out here?
    You can see that there is a supremacy clause problem here 
with the Federal Government and the local agencies involved. 
There's also a 10th amendment problem, because, you know, local 
police departments and local agencies operate on their own 
jurisdictions and not under the Federal Government. So we 
establish that in order to have any legislation that would have 
jurisdiction over the Federal agency it would have to be 
congressional legislation.
    You've heard me say I think there should be comparable 
legislation as well for the District of Columbia. Suppose there 
was congressional legislation, established in a kind of 
clearinghouse notion, where the agencies had to operate on a 
consensual basis, but the leadership, the Mayor and whoever 
would be designated by the Federal Government, had 
responsibility for ensuring cooperation and funding could be 
through the Federal Government or by Federal grants. Do you 
believe that kind of legislation would be acceptable to the 
District of Columbia?
    Ms. Patterson. For myself, again, not having had this 
affirmed by the Council, I would prefer to see, if there is 
congressional legislation enacted, that it address itself, as 
you indicate, to the Federal partners to basically say, 
``Federal agencies, you will participate in such an entity as 
this'' to give them both the authority and the direction to so 
participate as Federal partners.
    Ms. Kellems. I agree.
    Judge King. I agree. Essentially, I think we need to create 
some entity that can be funded and operated. Now it's run by 
MOU still. That could be by city Council legislation, just to 
create the physical entity of some sort of corporate body. But 
then the need for legislation is really very minimal.
    Ms. Norton. So--excuse me, if I could just--so you think 
maybe the whole thing could be done by an MOU? Could the whole 
thing be done by an MOU with an MOU between the Federal 
Government and the District government?
    Ms. Kellems. The issue that I see where we have an MOU is 
if we wanted to create something that could receive money, and 
the MOU cannot create an entity that can receive money. The MOU 
can only create the sort of board of directors, the CJCC 
members itself. That's what would require additional 
legislation if we got to that point.
    Judge King. We can do the partnership but not the body that 
receives the funds and disburses them.
    Mrs. Morella. That's very helpful.
    I'm just going to ask one final question so we can go on to 
our next panel, to, I guess, Councilwoman Patterson. The 
District of Columbia has proposed funding, as we've discussed 
over and over again, for CJCC for fiscal year 2002. I'm 
wondering organizationally that, under that concept, where 
would CJCC be located?
    Ms. Patterson. I think, as envisioned in the budget, the 
funding would go to the Office of the City Administrator to be 
part of the staffing pattern, I assume, within the Deputy 
Mayor, Ms. Kellems's budget. That's insofar--again, as the 
District dollars are concerned, that would be, as I said, seed 
money. That would be where you would start from. But I could 
foresee--as the nonlawyer on the panel here, I could foresee 
some entity being created that could then use that funding and 
add to it.
    Mrs. Morella. It seemed to me that one of the difficulties 
may be the independence that we've heard over and over again, 
if you in fact have it. So then the Office--as your draft 
legislation states, the Office of the Chief Administrator, that 
it appears to me that it might take away some of the need for 
independence.
    Would you like to comment on it, Ms. Kellems?
    Ms. Kellems. I'd be happy to.
    That is certainly the concern that some of the members 
have, that if the funding comes through any one agency, whether 
it's the Mayor's office or others, that those staff people will 
be influenced by the individual interests of the agency paying 
their salary. I think that's a very legitimate concern, and I 
understand it.
    My only--I can only speak from experience. At the time that 
I was executive director--and I had two staff people--we were 
funded by the control board. They paid our paychecks, but we 
did not work for them. We quite clearly worked for the Criminal 
Justice Coordinating Council, and that was the control board's 
contribution to it.
    In the same way, we've made the commitment that the funding 
that's earmarked in the budget for the CJCC will be controlled 
by the CJCC, whether that's a--that's the formality that we've 
put in the budget with that language. But I understand the 
concern, and I think that's legitimate.
    Mrs. Morella. Do you feel that--would Federal funding be 
appropriate, do you think, for the CJCC, Ms. Kellems? And I'm 
going to ask you, Councilwoman Patterson.
    Ms. Kellems. I've struggled with this issue a lot--of where 
the funding should come from. I'm not opposed to it. I think 
because so much of our system is Federal and there's so much 
Federal obligation, then there's certainly some cost to be 
borne.
    As Ms. Norton pointed out, it's difficult to put the 
District in the position of saying we're taking away your 
responsibilities, but we're leaving you with costs of--that are 
associated with those responsibilities.
    The reason that I think I have some confidence about the 
upcoming fiscal year is because I know how much of the CJCC 
activities in the past were funded through grants, and the 
administration has made the commitment, working with the CJCC, 
to use grant dollars extensively in this year.
    Mrs. Morella. Right.
    Ms. Patterson.
    Ms. Patterson. Thank you. I think my preference would be 
for Federal funds to come from Federal agencies, as opposed to 
some kind of a blanket grant, because then I think that--if a 
U.S. attorney or whoever brought money to the table, if you 
will, I think that helps to vest those partners in the end.
    Mrs. Morella. Judge King.
    Judge King. I think I essentially agree that if we had 
clearly earmarked funds, so they had to come in, it would be 
helpful to have them come through the several agencies. So it 
brings everybody to the table as a participant.
    Again, I don't think that's the crucial issue. And as Ms. 
Kellems said, if it's clear that the funding comes to the CJCC 
for administration by the CJCC, it's less critical where it 
comes from, but it would be helpful to have it come from the 
agencies.
    Mrs. Morella. I want to thank the three of you for being 
here. I hope that you will respond to additional questions we 
may have, but also feel free--since we've had this discussion 
this morning, feel free to send us any other suggestions as a 
result of this hearing today.
    Thank you, Ms. Kellems--I guess I should call--what do you 
call the Deputy Mayor, Mayor?
    Ms. Kellems. Margret is fine.
    Mrs. Morella. Councilwoman Patterson and Judge King, thank 
you.
    So our third panel, we have the chief of police, Charles 
Ramsey, chief of police of the District of Columbia; Kenneth 
Wainstein, acting U.S. attorney, District of Columbia; John 
Clark, Corrections trustee, D.C. Office of the Corrections 
Trustee; Cynthia Jones, director, Public Defender Service of 
D.C.; Susan Shaffer, director of the District of Columbia 
Pretrial Services Agency; and Michael Gaines, chairman of the 
U.S. Parole Commission.
    Boy, that's a big panel.
    Again, I will ask you, when you are so assembled, if you 
would continue to stand so that I could administer the oath. If 
you would raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. The affirmative response is recorded.
    So, again, if we'll continue as we have for the others with 
condensing your comments to 5 minutes or less, it would be most 
appropriate. You have sort of the benefit of having heard what 
we had already said. We will try not to repeat too much, but 
you've also had the pain of waiting, and so I appreciate that, 
too.
    We'll start off with the chief. Thank you all for being 
here. Thank you, Chief Ramsey.

STATEMENTS OF CHARLES H. RAMSEY, CHIEF OF POLICE, GOVERNMENT OF 
  THE DISTRICT OF COLUMBIA; KENNETH L. WAINSTEIN, ACTING U.S. 
  ATTORNEY, DISTRICT OF COLUMBIA; JOHN L. CLARK, CORRECTIONS 
  TRUSTEE, D.C. OFFICE OF THE CORRECTIONS TRUSTEE; CYNTHIA E. 
  JONES, DIRECTOR, PUBLIC DEFENDER SERVICE OF D.C.; SUSAN W. 
SHAFFER, ESQ., DIRECTOR, DISTRICT OF COLUMBIA PRETRIAL SERVICES 
AGENCY; AND MICHAEL J. GAINES, CHAIRMAN, U.S. PAROLE COMMISSION

    Mr. Ramsey. Thank you and good morning, Madam Chair, 
Congresswoman Norton. I appreciate the opportunity to be 
present here this morning and to present this statement 
concerning coordination in the District of Columbia's criminal 
justice system. For your information, the text of my remarks is 
available on our Department's Web site, MPDC.org.
    This hearing comes at a time of continued progress and 
tremendous promise within the Metropolitan Police Department 
and the entire D.C. criminal justice system.
    This year, as in the 5 preceding years, crime in our city 
is down and down significantly. Thus far, in 2001, index crime 
has declined 6 percent when compared to the same time last 
year. Homicides are down 34 percent this year, after reaching a 
13-year low in the year 2000. Lower crime rates, in turn, have 
translated into increased public confidence in the police, the 
justice system and the entire District government and new 
investment in housing, jobs and the city's physical and 
technological infrastructure. Enhanced public safety has been a 
major factor, I believe, in the rebirth of the District of 
Columbia.
    The reasons for the continuing decline in crime are many 
and varied. There is no one specific program or trend that we 
can point to with complete certainty. Still I'm certain that 
our success in reducing crime and improving public safety does 
revolve around one basic principle, and that principle is 
partnerships.
    If the history of law enforcement in our Nation has taught 
us anything, it's taught us that the police are most effective 
and successful when we work in partnership with other 
individuals and entities that have a role in public safety in 
our communities. That lesson has served as the foundation of 
the community policing movement in our Nation over the last 
decade or so, a movement that has brought police, other 
government agencies and citizens together in new and meaningful 
ways.
    I do not believe it is mere coincidence that the current 6-
year reduction in crime in the District of Columbia began right 
after our city first implemented community policing in the 
summer of 1997 or that our record of success has continued as 
we have updated and expanded our original model into the 
current strategy known as policing for prevention.
    When people think of community policing, they often focus 
on partnerships between police officers and residents. These 
partnerships are certainly critical to the success of community 
policing, but they represent only two sides of what we call the 
partnership triangle.
    The third side, one that is critically important but 
frequently overlooked, represents other government agencies and 
service providers, especially other agencies of the criminal 
justice system.
    In policing for prevention, we take the third side of the 
partnership triangle very seriously. Working with our city and 
Federal partners in the criminal justice system, we have put 
together a number of innovative partnership strategies and 
incorporated them into our larger community policing strategy.
    For example, I believe D.C. is fast becoming a national 
model for the emerging concept of community prosecution. Today 
in our city, assistant U.S. attorneys and members of our 
corporation counsel's office work hand-in-hand with our police 
community PSA teams, often using office space in our police 
district stations to target their prosecutorial efforts on 
those crimes that are of greatest concern to the community.
    As such, the criminal prosecution of cases flows naturally 
and smoothly from the problem-solving process initiated at the 
neighborhood level.
    In the area of probation and parole, our officers are 
teaming up with adult probation and parole officers to 
strengthen supervision and enhance offender accountability. It 
sends a powerful message to the offenders on supervision and to 
the community when MPD officers and probation and parole 
officers work side by side.
    In addition to increased supervision, these teams are 
developing networks in the community to assist probationers and 
parolees with training and educational opportunities, job 
placement, substance abuse assistance, and critical life 
skills.
    Another example of enhanced coordination, under the 
leadership of Congresswoman Norton, the MPD has now executed 
four Police Coordination Act agreements with Federal law 
enforcement agencies that have jurisdiction in the District. 
These agreements expand the jurisdiction of these Federal 
agencies, allowing them to assist our Department in patrol and 
other law enforcement activities.
    In communities such as Capitol Hill, where the U.S. Capitol 
Police have a longstanding agreement with the Metropolitan 
Police Department on expanded patrols, our Federal partners are 
part and parcel of the community policing and problem-solving 
process.
    These Police Coordination Act agreements and the MOUs are 
in addition to the numerous very successful task forces 
involving the MPD, various Federal, State, and local agencies, 
the U.S. attorney's office, and others.
    In short, I believe the level of cooperation and 
coordination in the D.C. criminal justice system is strong and 
getting stronger. Community policing has provided an umbrella, 
a guiding philosophy, if you will, under which this 
coordination can take place. I believe all of us at this table 
share in a commitment to seeing this spirit of partnership 
continue to grow and develop.
    That said, the District of Columbia, like States across the 
Nation, continues to face coordination issues that are almost 
inherent in the way criminal justice is structured in our 
Nation. Our situation here is somewhat unique in that the 
entities involved are a combination of local agencies, Federal 
agencies, and local agencies under some form of Federal 
oversight.
    But the underlying challenge is much the same here as it is 
elsewhere: to be efficient and effective; to act as a true 
system, working toward the common goal of justice. We must 
ensure that coordination occurs not just on a case-by-case, 
project-by-project basis, but rather, we must strive toward a 
smooth and seamless system of working together.
    In recent years, under the leadership of the District's 
Criminal Justice Coordinating Council [CJCC], we have been able 
to identify, research, and analyze some of the critical, 
systemic issues facing our criminal justice agencies.
    For example, on the continuing matters of papering reform 
and court overtime cost, the CJCC funded a comprehensive study 
by the Council for Court Excellence, a study that documented 
the shortcomings in the current system and offers a number of 
common-sense reforms. The Metropolitan Police Department is 
committed to doing our part to ensure these recommendations are 
implemented in a timely and efficient manner.
    We recently began a pilot project with the Office of 
Corporation Counsel to authorize so-called officerless papering 
and other reforms in a variety of misdemeanor quality-of-life 
cases prosecuted by that office.
    We continue to work with Chief Judge King and the U.S. 
attorney's office in developing similar reforms in the 
processing of felony cases, as well.
    In this and other key areas, the CJCC has proven to be an 
invaluable partner in identifying issues that cut across 
multiple agencies and in presenting recommendations from a 
system-wide perspective.
    I strongly support the continuation of the CJCC, and 
recommend that its scope be expanded. For the CJCC to be truly 
effective and for our criminal justice agencies in the District 
to form a more unified and effective system, the CJCC must have 
the resources and the responsibility not just to raise and 
discuss these issues, but also to provide leadership and 
impetus for ensuring action and affecting change.
    The CJCC's role will be especially critical as our system 
tackles the continued problem of drug abuse and drug-related 
crime, youth violence, illegal weapons, and cyber crime.
    The CJCC will be equally important in coordinating our 
response to such promising new endeavors as papering reform, 
new information technology, and restorative justice, just to 
name a few.
    I applaud this subcommittee for examining the crime and 
public safety problems in the District of Columbia from a 
holistic perspective, and the Metropolitan Police Department 
looks forward to an era of even greater cooperation and 
coordination with our sister agencies as we continue working 
toward our common goals of safer streets, stronger 
neighborhoods, and justice for all.
    Thank you very much.
    Mrs. Morella. Thank you, Chief Ramsey.
    [The prepared statement of Mr. Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T6090.045
    
    [GRAPHIC] [TIFF OMITTED] T6090.046
    
    [GRAPHIC] [TIFF OMITTED] T6090.047
    
    [GRAPHIC] [TIFF OMITTED] T6090.048
    
    Mrs. Morella. I am pleased to recognize Mr. Kenneth 
Wainstein.
    Mr. Wainstein. Thank you, Madam Chairman, Congresswoman 
Norton. Good morning. Thank you for the opportunity to appear 
before you this morning.
    The U.S. attorney's office for the District of Columbia is 
pleased to participate in this hearing on the important issue 
of coordination of criminal justice activities in the District 
of Columbia.
    The U.S. attorney's office for the District of Columbia for 
years has been involved in and at the forefront of efforts to 
facilitate enhanced coordination and cooperation among law 
enforcement agencies in the District of Columbia.
    It is in this spirit that we support the creation of a 
permanent and independent Criminal Justice Coordinating 
Council. To that end, we offer several principles that should 
guide or that we believe should guide the design and operation 
of a permanent CJCC.
    First, independence. Given its Federal and local agency 
composition, the CJCC should be, in our view, an independent 
agency that is beholden to no member or political entity. The 
CJCC should, however, be prepared to issue periodic reports on 
the status of its findings, objectives, recommendations, and 
initiatives for review by all interested entities.
    Second, principals. The CJCC should be comprised of the 
principals of the various agencies or entities involved in the 
criminal justice system. While there may be times when a 
particular principal cannot attend a regularly scheduled 
meeting and must send a representative in his or her case, 
these instances should be rare. It is our perception that 
interagency efforts of this type succeed only if the principals 
make a personal and an institutional commitment to them.
    Third, coordination. As its name connotes, the purpose of 
the CJCC should be to coordinate those efforts which involve or 
affect more than one agency in the criminal justice system of 
the District of Columbia. The CJCC cannot and should not have 
the power to require an agency to take any particular action 
that agency believes to be contrary to its mandate, to its 
statutory, constitutional, and ethical responsibilities, or to 
the integrity of its internal operations.
    While the CJCC can urge, cajole, or otherwise attempt to 
persuade its members, it must not have the authority to order 
them to adopt any course of action. Ultimately, the success of 
the CJCC, in our view, will be built on mutual trust among its 
members, the recognition of mutual self-interest among the 
members, and the establishment of a track record of successful 
cooperative initiatives.
    As the staffing, the staff of the CJCC should report to the 
CJCC and not to any individual agency or entity. The staff's 
role should be to gather information and data, draft reports 
and recommendations, seek funding for joint projects, manage 
joint projects as appropriate, facilitate the meetings, and 
provide other support services to the CJCC members.
    Structure. Because the mission of the CJCC will be defined 
by the members, we believe that the members themselves should 
be given the opportunity to develop a governing and an 
operational structure for the CJCC that will best serve its 
mission.
    We believe that because of their expertise and firsthand 
knowledge of their needs, the members are in the best position 
to establish these structures.
    Project facilitation. The CJCC is uniquely positioned to 
facilitate the design and implementation of those information 
technology projects that involve the participation of multiple 
agencies in the criminal justice system.
    The GAO report and our own experience tell us that the 
absence of integrated information technology and communications 
is the single most significant barrier to effective 
coordination in our criminal justice system.
    Time and again, we have been stymied in our efforts to make 
improvements to the criminal process by our inability to 
transfer information efficiently, to provide accurate reports, 
and to track the progress of cases and criminal defendants.
    We can envision information technology projects that would 
benefit greatly from cooperative management by the CJCC. As the 
GAO report cited, the papering process is an area in need of an 
integrated information technology system. We would realize 
significant savings of time and resources if we had the 
technology that would permit the police to prepare arrest 
paperwork electronically instead of by hand, and transfer that 
paperwork electronically to the U.S. attorney's office and the 
other agencies who use that information to perform the 
subsequent steps in the process of charging and of presenting a 
criminal defendant in court.
    Such a project requires the commitment of the agencies 
involved in that process, and highlights the need for a 
coordinating body that can bring those agencies together and 
help them mold a plan that would achieve the systemic objective 
while taking into consideration each agency's particular 
concerns.
    We believe the interagency coordination and collaboration 
among the agencies involved in the District of Columbia 
criminal justice system will inure to the benefit of our 
victims and witnesses, the criminal defendants and their 
counsel, and the District of Columbia community at large.
    Therefore, the U.S. attorney's office stands ready, as it 
has been since the institution of the current CJCC, to 
participate as an enthusiastic and an active member of a 
permanent and independent CJCC.
    We thank you for this opportunity to express our views 
about the CJCC. I will be happy to answer any questions that 
you may have. Thank you.
    Mrs. Morella. Thank you very much. We appreciate your 
testimony.
    [The prepared statement of Mr. Wainstein follows:]
    [GRAPHIC] [TIFF OMITTED] T6090.049
    
    [GRAPHIC] [TIFF OMITTED] T6090.050
    
    [GRAPHIC] [TIFF OMITTED] T6090.051
    
    [GRAPHIC] [TIFF OMITTED] T6090.052
    
    [GRAPHIC] [TIFF OMITTED] T6090.053
    
    [GRAPHIC] [TIFF OMITTED] T6090.054
    
    [GRAPHIC] [TIFF OMITTED] T6090.055
    
    [GRAPHIC] [TIFF OMITTED] T6090.056
    
    [GRAPHIC] [TIFF OMITTED] T6090.057
    
    [GRAPHIC] [TIFF OMITTED] T6090.058
    
    [GRAPHIC] [TIFF OMITTED] T6090.059
    
    [GRAPHIC] [TIFF OMITTED] T6090.060
    
    [GRAPHIC] [TIFF OMITTED] T6090.061
    
    [GRAPHIC] [TIFF OMITTED] T6090.062
    
    [GRAPHIC] [TIFF OMITTED] T6090.063
    
    [GRAPHIC] [TIFF OMITTED] T6090.064
    
    [GRAPHIC] [TIFF OMITTED] T6090.065
    
    [GRAPHIC] [TIFF OMITTED] T6090.066
    
    [GRAPHIC] [TIFF OMITTED] T6090.067
    
    [GRAPHIC] [TIFF OMITTED] T6090.068
    
    [GRAPHIC] [TIFF OMITTED] T6090.069
    
    Mrs. Morella. Mr. Clark.
    Mr. Clark. Thank you, Madam Chair. Good morning, and good 
morning, Congresswoman Norton.
    It is a privilege to appear before the committee today to 
discuss what I consider to be very important issues. Though I 
feel very strongly about these issues, in view of the hour, I 
will try to be brief, stressing just several points from my 
written statement.
    First, it has been my experience over the last several 
years as an official in the District that a great deal of 
effective work is going on by the agencies represented here 
today, and by others in the District, to improve the quality of 
the criminal justice system. I think you have heard a number of 
examples mentioned already.
    But by the same token, there are also significant 
inefficiencies in the system, as was detailed by the Council of 
Court Excellence report, including, certainly, the need for 
greater coordination and collaboration.
    Next, I strongly endorse, as have a number of others, the 
thrust of the GAO report on the need to formalize and 
strengthen the CJCC as the most effective vehicle for that 
improved collaboration, though I do, as a number of others, 
oppose giving it any authority to mandate changes in internal 
policy or practice by the member agencies.
    Quite simply, there are no quick, easy fixes or solutions 
which can be mandated to these difficult issues. These issues 
seem to be more susceptible to good planning and dogged, 
sustained attention.
    Regarding the manner of structuring the CJCC's 
administrative apparatus and staffing, I do support formalizing 
it, but as an independent District agency. However, if the CJCC 
is to be fully effective--if it is, in other words, to be more 
than a mere discussion round table--it also needs significant 
resources, or some resources, certainly.
    I cannot emphasize enough that it needs a sustained, stable 
stream of funding, first for staff, and second for projects and 
initiatives such as those required to implement the various 
recommendations of the report by the Council of Court 
Excellence.
    In that regard, the CJCC is currently off to a modest but 
solid start on several projects, some of which have been 
mentioned already, including the papering reform, making use of 
the $1 million that Congress made available this year to the 
CJCC through the budget of our office at the corrections 
trustee.
    That kind of substantial funding, to my mind, needs to be 
sustained, and hopefully in the future that kind of money which 
came through our office, would come directly to, in some form 
or fashion, directly to the CJCC.
    Further, I strongly endorse the thrust of the GAO 
recommendation that the CJCC issue an annual report. This 
requirement would provide for public accountability and would, 
I think, promote the sense of urgency and focus for the CJCC.
    Finally, on a somewhat different note, I am pleased to 
point out to the subcommittee a lesser known success story in 
the District in terms of coordination; namely, the significant 
progress made by a parallel coordination group previously 
mentioned by Margaret Kellums, the Interagency Detention Work 
Group, which is composed of about 15 agencies and court 
offices, including Judge King in the Superior Court and most of 
the agencies at this table.
    For the past 18 months, we have been meeting monthly, 
working in six committees. Two documents detailing the very 
concrete progress of that group have been made available 
already to the committee.
    With those brief comments, I will close and will be eager 
to discuss these important issues with the subcommittee.
    Mrs. Morella. Thank you, Mr. Clark.
    [The prepared statement of Mr. Clark follows:]
    [GRAPHIC] [TIFF OMITTED] T6090.070
    
    [GRAPHIC] [TIFF OMITTED] T6090.071
    
    [GRAPHIC] [TIFF OMITTED] T6090.072
    
    [GRAPHIC] [TIFF OMITTED] T6090.073
    
    [GRAPHIC] [TIFF OMITTED] T6090.074
    
    [GRAPHIC] [TIFF OMITTED] T6090.075
    
    [GRAPHIC] [TIFF OMITTED] T6090.076
    
    [GRAPHIC] [TIFF OMITTED] T6090.077
    
    [GRAPHIC] [TIFF OMITTED] T6090.078
    
    [GRAPHIC] [TIFF OMITTED] T6090.079
    
    [GRAPHIC] [TIFF OMITTED] T6090.080
    
    [GRAPHIC] [TIFF OMITTED] T6090.081
    
    Mrs. Morella. Mrs. Jones.
    Ms. Jones. Good afternoon. I appreciate the opportunity to 
appear before you today on behalf of the Public Defender 
Service for the District of Columbia.
    It is the mission of the Public Defender Service to provide 
quality legal representation to indigent people facing a loss 
of liberty in the criminal justice system, in juvenile 
delinquency proceedings, and in mental health proceedings. We 
share the responsibility for providing legal representation 
with the Superior Court. The court makes appointments under the 
Criminal Justice Act.
    In addition to litigating cases in the local and Federal 
courts on behalf of indigent people, the Public Defender 
Service is also devoted to ensuring that sound criminal justice 
policy decisions are made.
    The D.C. Criminal Justice Coordinating Council is an 
effective forum for this function. I have been working with the 
CJCC since its early creation, first as the deputy director of 
the D.C. Pretrial Services Agency, and now as the director of 
the D.C. Public Defender Service.
    I know firsthand that the CJCC has been effective in 
bringing all criminal justice agencies, local, independent, and 
Federal, to the table for productive interagency collaboration. 
In short, the CJCC works.
    Just recently, the Public Defender Service, the Superior 
Court, the Pretrial Services Agency, and the corrections 
trustee worked to create the Options Program, a community-based 
mental health treatment program for nonviolent mentally ill 
defendants. Each agency contributed its resources and expertise 
to the creation and successful implementation of this critical 
program. This level of collaboration would not have been 
possible without the forum of the CJCC.
    We all look forward to expanding this program over the 
course of the next year to provide even greater services to 
this vulnerable population.
    How can the CJCC be improved? First, the Public Defender 
Service supports the efforts underway by the D.C. Council and 
the Mayor's office to further strengthen and institutionalize 
the CJCC. While we have made great strides, we have much more 
work to do.
    Second, the CJCC does, in fact, need a small, permanent 
staff to research best practices among criminal justice 
agencies around the country, establish an annual performance 
plan, and set priorities for the CJCC. The CJCC has been most 
productive when it is properly staffed with skilled 
professionals who are solely dedicated to the implementation of 
CJCC initiatives by providing research to assist the group in 
making informed decisions.
    Finally, the success or failure of the CJCC will depend 
largely on the level of coordination and cooperation of the 
CJCC members. The CJCC members do not always agree on the best 
course of action to achieve the best criminal justice reforms. 
That is to be expected with the diversity of perspectives we 
represent. But we are all at the table. We have all willingly 
and voluntarily assumed the responsibility to collaborate.
    Most importantly, we all recognize the fact that productive 
collaboration is not optional. The missions of each of our 
respective agencies are so inextricably intertwined that we 
must cooperate or we will surely fail.
    There are many, many problems in the criminal justice 
system that are of great concern to the Public Defender 
Service. These issues will no doubt always keep PDS at the 
table.
    Foremost on our agenda is ensuring that the poor receive 
fair and equitable treatment by the police, the court system, 
and all those charged with supervising and incarcerating adults 
and juveniles. PDS will continue to work to ensure that there 
is adequate medical and mental health care for incarcerated and 
institutionalized juveniles and adults. I continue to believe 
that the CJCC is and should be the starting point for 
addressing these very serious problems.
    Where do we go from here? I very much look forward to 
working with the CJCC over the course of the next year in 
establishing a mental health diversion court in the District of 
Columbia. Mental health treatment in the criminal justice 
system has received a great deal of attention across the 
country lately, and mental health treatment and diversion 
courts are rapidly increasing in number.
    In order to successfully implement such a new program, the 
U.S. attorney's office, the D.C. Superior Court, the Public 
Defender Service, the Pretrial Services Agency, and others will 
have to collaborate and compromise and participate. I am 
confident that we will do that.
    I also look forward to working with other CJCC members to 
create a comprehensive community reentry program for offenders 
who are returning to area communities after lengthy periods of 
incarceration. In order to implement this project, PDS will 
have to cooperate and collaborate with the Court Services and 
Offender Supervision Agency, the Federal Bureau of Prisons, and 
the D.C. Department of Corrections.
    Again, I am confident that this level of collaboration will 
occur.
    In sum, the District of Columbia criminal justice system 
needs a strong CJCC, and it has one. I am sure that all of the 
other member agencies will agree that we have a great deal of 
work to do, but we have already made some progress, and we have 
all made a very strong commitment to working together.
    Thank you very much for this opportunity.
    I would be happy to answer any questions.
    Mrs. Morella. Thank you, Mrs. Jones. Excellent testimony by 
all of you.
    [The prepared statement of Ms. Jones follows:]
    [GRAPHIC] [TIFF OMITTED] T6090.082
    
    [GRAPHIC] [TIFF OMITTED] T6090.083
    
    [GRAPHIC] [TIFF OMITTED] T6090.084
    
    [GRAPHIC] [TIFF OMITTED] T6090.085
    
    [GRAPHIC] [TIFF OMITTED] T6090.086
    
    [GRAPHIC] [TIFF OMITTED] T6090.087
    
    [GRAPHIC] [TIFF OMITTED] T6090.088
    
    [GRAPHIC] [TIFF OMITTED] T6090.089
    
    Mrs. Morella. Ms. Schaffer.
    Ms. Shaffer. Good afternoon, Madam Chairwoman and 
Congresswoman Norton. Thank you for inviting me to appear 
before you today.
    I am the director of the D.C. Pretrial Services Agency. 
Pretrial Services assists both the Federal and the local courts 
in determining eligibility for pretrial release by providing 
background and criminal history information on arrestees in the 
District of Columbia.
    We are also responsible for supervising conditions of 
release for approximately 24,000 defendants a year, and 
reporting on compliance to the U.S. District Court and to the 
D.C. Superior Court.
    The Pretrial Services Agency would like to emphasize its 
support for some of the central underpinnings of the GAO 
report: One, that the CJCC is the primary venue in which D.C. 
criminal justice agencies can identify and address interagency 
coordination issues; two, that the CJCC has had some success, 
and in fact, some notable success, in improving agency 
coordination, particularly in areas such as data sharing; 
three, that the CJCC should be an independent body with its own 
director and staff; four, that the role of the CJCC is to help 
coordinate but not to mandate control of the operations of the 
D.C. criminal justice system; and five, that an annual report 
on the results achieved and issues that require further 
attention would be a sufficient way to provide a spotlight on 
areas of disagreement and continuing concern.
    I think this report could be a very strong incentive for 
all agencies to cooperate, as it will highlight the cooperative 
efforts, or lack thereof, in a very public way.
    Pretrial Services does respectfully disagree with one 
finding in the GAO report regarding the extent of disagreement 
between agencies on goals and participants in various 
initiatives, initiatives that in many instances were just 
beginning to be put together, quite honestly, when the GAO 
report was written.
    From Pretrial's perspective, there was really no major 
disagreement on who should participate in various initiatives, 
but basically, there was occasional uncertainty about which 
agencies wanted to be at the table. This was really because 
many of these projects were just beginning.
    There was some disagreement about goals, and that generally 
related to different goals connected with the particular 
agency's mission. So it was not so much that the members could 
not agree on the overall goal of the committee, but some of the 
writing that was done to support the various initiatives that 
were drafted by different agencies reflected a slightly 
different slant on how they looked at it.
    We don't believe, however, that there is any lack of 
commitment among the agencies to try to resolve issues of 
common concern. We believe that participation on the CJCC 
should be voluntary. We believe that agencies should come to 
the table because they see the clear, mutual benefit in doing 
so.
    Over the years, Pretrial has successfully participated in a 
number of very good collaborative efforts which we have 
enumerated in our written testimony. They include the highly 
successful D.C. Superior Court Drug Intervention Program, many 
halfway house initiatives, the CJCC-sponsored justis system, 
and the new Options mental health programs that Ms. Jones 
described.
    With these many successes, however, I do caution that it is 
imperative that a dedicated staff of an independent CJCC 
support these continuing collaborations. This will allow 
ongoing collection and analysis of multiagency data, as well as 
independent consideration of policy choices presented by the 
data, including alternative ways of doing business that could 
enhance the entire criminal justice system.
    I thank this committee for taking the time to bring 
attention to these issues. I would be happy to answer any 
questions.
    [The prepared statement of Ms. Shaffer follows:]
    [GRAPHIC] [TIFF OMITTED] T6090.090
    
    [GRAPHIC] [TIFF OMITTED] T6090.091
    
    [GRAPHIC] [TIFF OMITTED] T6090.092
    
    [GRAPHIC] [TIFF OMITTED] T6090.093
    
    [GRAPHIC] [TIFF OMITTED] T6090.094
    
    [GRAPHIC] [TIFF OMITTED] T6090.095
    
    [GRAPHIC] [TIFF OMITTED] T6090.096
    
    [GRAPHIC] [TIFF OMITTED] T6090.097
    
    Mrs. Morella. Thank you, Ms. Schaffer.
    Now our last panelist, Mr. Gaines.
    Mr. Gaines. Thank you, Madam Chair, Congresswoman Norton. I 
appreciate the opportunity to appear before you today on behalf 
of the U.S. Parole Commission.
    The Revitalization Act gave the U.S. Parole Commission a 
unique role in turning over the District of Columbia parole 
responsibilities previously handled by the D.C. Board of Parole 
to it. It is not totally unlike one State being given the 
parole authority of another State, and I am certain it is 
something that has never even come even close to happening in 
the past.
    It is vital for the Commission to succeed with these new 
responsibilities, that there be the highest possible level of 
coordination among the several participating Federal and local 
agencies that make up the system. The Criminal Justice 
Coordinating Council is effective and can play a vital role in 
the future in that regard.
    The Commission was pleased that the GAO report included 
major initiatives undertaken by the Commission since August 5, 
1998, to improve the parole release, supervision, and 
revocation functions transferred to the Commission by the 
Revitalization Act.
    Chief among these initiatives was the securing of adequate 
background information concerning offenders who are considered 
for parole and for parole revocation.
    It has required major effort on the Commission's part to 
build a system whereby the necessary documents are regularly 
provided to us by the courts and various agencies involved, and 
I would note that without cooperative efforts by everyone 
involved, it would have simply been impossible.
    We are also pleased that the GAO report included the 
violence prediction scale developed by the Commission in 1998 
to guide its parole release decisions. We believe the use of 
this scale in parole decisions has resulted in a better use of 
prison resources to protect the public from those offenders 
most likely to engage in violent recidivism, and has also saved 
tax dollars by avoiding the unnecessary incarceration of 
offenders who are most likely to be law-abiding citizens upon 
their release; again, citing the cooperative part of this, 
given the supervision that they receive from CSOSA, one of our 
major partners in this undertaking.
    The GAO report does identify an area of concern for the 
Commission. It accurately notes that we, as well as some other 
Federal agencies involved in the D.C. criminal justice system, 
receive our appropriations from the Commerce, Justice, State, 
and Related Agencies Subcommittees.
    The President's proposed fiscal year 2002 budget for the 
Commission provides badly needed additional funding for 
conducting parole revocation hearings for D.C. offenders. The 
Parole Commission has taken extraordinary measures in the 
current year to meet difficult challenges presented by the new 
responsibilities we have received under the Revitalization Act.
    In particular, the Commission has had to cope with limited 
hearing examiners and support personnel to conduct revocation 
hearings within applicable deadlines. If anything, the GAO 
report understates the difficulties that we have encountered, 
including a major backlog of parolees overdue for revocation 
hearings that were inherited by the Commission when we took 
over those responsibilities from August of last year, as well 
as difficulties in coordinating with the D.C. Department of 
Corrections over matters such as notification of arrests and 
appearance of parolees for scheduled revocation hearings.
    Although the Commission has been able to put the revocation 
process back in reasonable working order since experiencing a 
near breakdown situation last October, the situation does 
continue to be very serious.
    The Commission staff is working diligently, given serious 
staffing limitations, to meet demands for statistical reporting 
and information requests that we receive, as well.
    Many of the problems that we have encountered we have dealt 
with on an ad hoc basis. As Congresswoman Norton knows, we had 
a halfway house situation back in the fall, and only through 
her efforts, I think, of bringing together the parties involved 
were we able to come to a resolution of that.
    It turns out that is how we have dealt with a lot of 
problems that we have encountered during the revitalization 
process, simply by doing it on an ad hoc basis. I think the 
CJCC, if adequately established and funded, could provide the 
proper mechanism for dealing with those types of problems in 
the future, and I think that would be--I know that would be of 
very great benefit to the parole commission.
    Thank you very much. I would welcome your questions.
    Mrs. Morella. Thank you very much, Mr. Gaines.
    [The prepared statement of Mr. Gaines follows:]
    [GRAPHIC] [TIFF OMITTED] T6090.098
    
    [GRAPHIC] [TIFF OMITTED] T6090.099
    
    [GRAPHIC] [TIFF OMITTED] T6090.100
    
    [GRAPHIC] [TIFF OMITTED] T6090.101
    
    [GRAPHIC] [TIFF OMITTED] T6090.102
    
    [GRAPHIC] [TIFF OMITTED] T6090.103
    
    [GRAPHIC] [TIFF OMITTED] T6090.104
    
    Mrs. Morella. Thank you all. You were all great in the 
testimony that you submitted and that you gave orally.
    I do want you to know that I have looked at the testimony 
you have submitted, and for many of you, you submitted far more 
information than you had an opportunity to relate orally.
    I am going to ask you all maybe one question. First of all, 
I understand all of you believe that there is the need for the 
CJCC. You all believe it should be independent. That has been 
emphasized over and over again. You all believe that there 
should be an annual report, you know. You all believe that 
nobody should be coerced or required to submit or to be 
involved. We should not be forcing entities, there should be 
leadership.
    Now let me ask you, each and every one of you, do you think 
that Congress should legislatively authorize the CJCC, and how 
do you think it should be funded?
    Anybody who wants to start off.
    Ms. Shaffer. I will start, since no one else is jumping up 
here to speak.
    As to how it should be funded, I am really not in a 
position of authority to answer that, as it pertains to Federal 
funding. Let me address your question about whether it should 
be formally institutionalized by Congress, regardless of the 
funding issue.
    I think there is a strong sentiment, which you have 
probably picked up on today, among the agencies that because we 
all, even the Federal agencies, serve a local criminal justice 
community and have a local mission, that the CJCC would most 
appropriately be established by the city Council.
    We have heard today that the city Council has taken steps 
recently to endorse the existence of the CJCC, and has 
established limited funding. I think many of us believe that 
additional action is now needed to formally establish the CJCC 
and its administrative support structure.
    As to whether the District will finally establish it and 
adequately fund it or whether it will want or expect 
contributions from the Federal Government, I am really not in a 
position to say. I think that it touches on what Councilmember 
Patterson addressed this morning.
    Mrs. Morella. That is good getting us started on that.
    Mrs. Jones.
    Ms. Jones. I would say that currently we have a CJCC where 
no one is compelled to participate, yet everyone does. No one 
is required to be at the table, yet everyone is. I don't know 
that Federal legislation to create it is necessary. If the 
District of Columbia establishes an independent District of 
Columbia agency called the CJCC, I think it will have the same 
amount of participation.
    I do believe it needs to be adequately funded, and probably 
$169,000 is not enough. As a practical matter, I believe that 
Federal funding may be necessary to fully implement all of the 
goals of the CJCC, but again, I would emphasize that I don't 
know that there needs to be Federal legislation to create a new 
entity in the District of Columbia to achieve the results this 
committee is looking for.
    Mrs. Morella. Mr. Clark.
    Mr. Clark. I think there has been a real good discussion of 
these issues previously in this hearing.
    I heard Congresswoman Norton mention that it might be--I 
identify with some of the remarks of Mr. Harlan, that it might 
be beneficial for the Congress to at least acknowledge the 
existence of an agency which may have been, and hopefully will 
be, more formalized in its creation by the D.C. city Council, 
especially since there is so much Federal participation, and 
since I think an acknowledgment by the Congress of the 
existence of the Council would give more focus and more 
motivation, possibly, to the Federal partners and federally 
funded partners.
    So I think that makes sense to me, and I think that it 
probably would be helpful in focusing attention, and would be 
helpful if there was some indication of the intent of Congress 
for these agencies to seriously participate.
    On the funding, again, obviously, I am in a position where 
I requested $1 million in this year's budget. I have another 
request for an additional $1 million for next year, which has 
been endorsed in the President's budget, for money to flow 
through our office to supplement or to fund CJCC projects.
    So certainly I think in the practical reality of things 
that if these kinds of initiatives and projects are going to go 
forward, the local funding needs to be supplemented with some 
Federal funding.
    Mrs. Morella. Mr. Wainstein.
    Mr. Wainstein. Thank you.
    I am not going to stray far from the comments of the last 
two witnesses. I would echo what Mrs. Jones said about 
participation from all the agencies. I believe all the agencies 
to date have established a track record of willing and active 
participation. The principals have been appearing at the 
meetings. I think we can have more meetings and rejuvenate the 
CJCC to some extent.
    But in terms of our--our being the agency's--the members' 
willingness to participate, I don't think that is a concern. 
That being said, I would also echo what Mr. Clark said, that we 
do need secure, sustained funding for the CJCC to be effective.
    We have all commented so far on the small staff, I guess a 
staff of one. And if we want the CJCC to be able to undertake 
the kind of initiatives that we envision, it will need the 
funding. If that requires proportional funding from Congress 
and from D.C., that seems like that would be a wise construct. 
If that would, in turn, require Federal legislation at least 
acknowledging the existence of the CJCC, then I guess that 
would be necessary.
    But the bottom line is for the CJCC to undertake the things 
that we want it to undertake, I believe it will need sustained 
and secured funding.
    Mrs. Morella. You would agree that maybe an acknowledgment 
by Congress of its existence and importance might help?
    Mr. Wainstein. I will say, at least for this agency, we 
won't need that to be an active member of the CJCC. We will be, 
regardless of whether there is an acknowledgment. It certainly 
could not hurt.
    Mrs. Morella. Chief Ramsey.
    Chief Ramsey. I think my opinion differs slightly on this 
issue. I think there needs to be probably a combination of both 
local and Federal legislation around this issue. I will tell 
you why.
    It is true that to date all the agencies have voluntarily 
participated, but it is also true that we all acknowledge that 
we are in a crisis, if you will, and that has really prompted a 
lot of participation.
    If we want CJCC to succeed into the future once we start to 
resolve some of these issues, then I think it is very important 
that critical agencies, both local agencies and Federal 
agencies, be mandated to participate in this. Otherwise, 
participation of a key agency could, in fact, fall off, and it 
could harm us in the long term, and we could find ourselves 
right back in the position that we are in right now.
    Our local government, our Council, has already taken steps 
toward passing legislation around the CJCC, but the reality is 
that we have no authority over any of the Federal agencies that 
are participating. So I think there is a need for something at 
that level in order to make sure that all the people who are 
key players continue to participate.
    I also think that in terms of funding, it ought to come 
from both sources. I think there is a need for both local and 
Federal funding. We need to take advantage of grants.
    We have a lot of serious problems. It really has not been 
mentioned very often, at least I don't recall hearing it, but 
we have a lot of our problems centering around technology and 
the lack of integrated systems. It is going to take a 
tremendous amount of funding in order to correct a lot of those 
problems. I don't know where that money is going to come from. 
Not only do you have to create the system, you have to be able 
to maintain it over the long term. Technology, as rapidly as it 
changes, obviously there are going to be upgrades to the 
systems, and there are going to be all kinds of things that we 
need to take into consideration. There needs to be some way in 
which we can do that.
    I also think that when all is said and done, there is going 
to have to be oversight of this body. I think that our city 
Council certainly will provide some oversight in this area, but 
there needs to be some at the Federal level as well. Because 
again, my experience, and I have been part of this for 3 years 
now, from when it was MOU partners and now CJCC, that we all 
are in agreement on certain changes. However, the reality is if 
that change is painful to any particular agency, there is 
nothing that really forces them to have to implement the 
change. Sometimes it is a philosophical difference that may 
make an agency reluctant. Other times, it could be a strain on 
the budget.
    It is one thing to say we want to change something, but it 
is another issue when it comes to budgeting for that and making 
it happen when there is a shift in costs from one agency to 
another. That is a legitimate concern.
    So there needs to be some oversight where, when these 
issues are laid out and the annual report is written, that 
there is a gathering like this where questions are asked and 
people are held accountable for their actions are in looking at 
the larger picture of the system as a whole, and just how it is 
functioning.
    Mrs. Morella. In fact, in your testimony you mentioned 
expanding the scope of CJCC. Was that articulated by some of 
the comments that you now----
    Chief Ramsey. Yes, ma'am. I think right now we are kind of 
in a crisis mode. I think a lot of the issues we are looking at 
are simply because of the immediate urgency of some of the 
issues that we are dealing with.
    But the potential of CJCC is just enormous. I think we need 
to really think about the potential that this group has. It may 
be a while before we begin to realize some of that, because we 
are still correcting many of the things that have been wrong 
with the system that plagued us for years.
    But there is going to come a point in time when we can be 
very creative and proactive in a way in which criminal justice 
is administered here in the District of Columbia. I would just 
not like us to get too narrow in our thinking and really just 
leave the door open for a lot of other possibilities.
    Mrs. Morella. Thank you.
    I am pleased to recognize Ms. Norton.
    Ms. Norton. Thank you very much. I appreciate the answers 
you have just given to Mrs. Morella's questions. I hope these 
answers and her questions and other questions have helped to 
stimulate you to think about what is a very difficult problem.
    I think that the question of funding should almost be put 
aside. The Federal Government can fund 100 percent a local 
entity, and does, or by some formula do the funding issue. I 
still--the notion that Mr. Wainstein raised about how--I don't 
think there will be any problem of people's willingness to 
participate, certainly there is no problem in the willingness 
to participate. The problem is how do you get Federal agencies 
to participate in something that has been--where the only 
statutory obligation is in legislation from a local entity.
    I would just like to invite hard legal thinking on this 
question. Everyone knows where I am on the home rule question, 
but this is more than that.
    Mr. Clark, when he said some acknowledgment of Federal 
responsibility in legislation might be necessary--again, I 
think this is not the kind of thing right off the top of our 
heads we can think about it, but the kind of answers that you 
have given, it seems to me, show how fertile the issue is. I 
very much appreciate them.
    I would like to ask, I suppose beginning with Chief Ramsey, 
now--this is a chart that I used before. Perhaps it can go up 
again. What is not on that chart is the line I have now drawn.
    Chief Ramsey, the line was drawn about March, and then you 
see stuff beginning to go up here. We have reached a low point. 
When they took over, when the Federal Government took over the 
halfway house operations, there were 158 people arrested who 
were on parole, out of jail. They got it down to 40. Now, the 
most recent figures have it up to 66. This thing is climbing 
again. This is the kind of thing we have to catch before it 
catches us.
    I wonder, Chief Ramsey, if you are aware of increased 
arrests of recently released inmates yourself.
    Chief Ramsey. Yes, ma'am. There has been a slight increase, 
and certainly this chart begins to show that. Whether it will 
remain over time, I don't think anyone knows, but I think you 
are absolutely right, now is the time to be concerned and to 
really find out the reasons why that is, and to take steps now 
to see to it that we once again get it back to lower levels, 
because we don't want to once again reach those high levels 
that we were at just a couple of years ago.
    I think more and more inmates will be getting released. I 
don't know exactly what the figures are, but I know that many 
people who were sentenced back in the seventies and eighties 
under determinant sentencing are now beginning to come to the 
end of those terms, and they will be coming back into our 
communities. If we are not careful, we will have a problem with 
people once again engaging in criminal behavior.
    So there are alternatives to that. Obviously, what we 
really have to work toward is working with these people as they 
come out of jail and helping them reintegrate into society.
    Ms. Norton. The alternative is they are out without all the 
services provided. I must say, I am very, very impressed with 
what happened in this. Let me give some considerable credit to 
Mr. Clark. For all of the talk about coordinating, Mr. Clark 
has shown that with one man, you can have a one-man 
coordinating system.
    Because when people began to walk away from these halfway 
houses, and I read about it, frankly, in the Washington Post, I 
asked everybody to come, every single agency, just to find out 
how in the world--so this is where some of the fear developed 
in the community, because they were reading in the paper that 
these folks are out and they are walking away from the halfway 
houses.
    I asked Mr. Clark, who had no--who was a peer and had been 
meeting with all these agencies--if he would take charge of 
this. Then I spoke to the deputy assistant attorney general to 
ask if he would reinforce that, and he did. He indicated that, 
yes, Mr. Clark would coordinate this.
    I would like to ask Mr. Clark about what halfway houses 
did--what do they do so that you get this kind of reduction in 
crime by people recently released from jail?
    Mr. Clark. Thank you, Congresswoman Norton, for those 
comments and for the question.
    First of all, I would like to help the committee understand 
a little better this chart that you have displayed, and how 
this came about.
    It wasn't, I will have to say, solely because of a new 
Federal responsibility kicking in. What happened in 1998 was 
several of us, including the Parole Commission and the Court 
Services, got together with the director of the Department of 
Corrections, at that time Margaret Moore, where there was a 
situation where she was kind of out on a limb because of 
previous criticism, and did not feel she could put any felons 
coming out of prison in halfway houses.
    We said that we will all get together and help you with the 
public responsibility and the public concern on this. So the 
program that went into effect in June 1998, which I think 
everyone acknowledges has had a significant impact on the 
rearrested parolees, for the most part was implemented by the 
D.C. Department of Corrections. These were that were coming out 
of D.C. prisons, out of Lorton or Youngstown and so on, and 
they were coming through halfway houses, Hope Village and 
Effect and so on.
    Along with that, we had the court services supervision 
officers, committed by the Court Services Agency, to have 
offices in the halfway house. So not only was there the halfway 
house placement with job assistance and so on. We had a 
situation where the parole officer was right in the halfway 
house helping with the transitional services there.
    So to me, this is an example that occurred kind of on a 
parallel track with the CJCC, where several agencies got 
together, and I think had a real effect on the public safety in 
the District.
    These issues with the halfway house I know, as you have 
mentioned, are difficult in terms of neighborhood concerns 
about the safety in that particular neighborhood. But the 
safety of the whole community is enhanced if we are able to 
bring these folks out through the halfway houses.
    In addition to public safety, I think the economic 
development of the District is enhanced. If we do not have 
parolees, who are the most at-risk population in the District, 
getting rearrested and getting in trouble, then there is going 
to be an increased perception of safety, and then the economic 
development of the District is going to be enhanced.
    Ms. Norton. I think it is important--these parolees do not 
have to go to a halfway house, isn't that right, under the law?
    Mr. Clark. Under the law, they don't. There was great 
encouragement from the U.S. Parole Commission once they took 
over responsibility from the paroling authority for the 
District to go ahead and get in line with the policy of the 
Federal Bureau of Prisons of bringing all these cases through a 
halfway house.
    Ms. Norton. The Federal Bureau of Prisons does this as a 
matter of practice, not of law, is that right?
    Mr. Clark. That is correct.
    Ms. Norton. So I just want to know how important this is, 
because what we have here is a kind of social service 
responsibility that the District would never have had. Do these 
people get tested also for drug use while they are on parole?
    Mr. Clark. They get tested regularly in the halfway house. 
In fact, the policy in the Federal halfway houses was adopted 
as part of this problem. If there is one dirty urine, they go 
back. Their parole is delayed and they go back into a treatment 
program for about 60 days, and then they are placed again in 
the halfway house.
    Ms. Norton. You can get all the way back to prison, I take 
it, with dirty urine and whatever else?
    Mr. Clark. Absolutely.
    Ms. Norton. The incentive here is extraordinary, especially 
since you have job counseling. You have to get a job, don't 
you?
    Mr. Clark. Within 14 days.
    Ms. Norton. If you are on parole from BOP, what is the job 
responsibility that the recently released person has?
    Mr. Clark. Typically, in the halfway houses, it is the BOP 
policy that the releasing prisoner should be employed within 2 
weeks. Sometimes they are not able to do that, but typically, 
it is my experience that when you tie that to some privileges 
of going home and seeing your family for a few hours on the 
weekend, and some of those other kinds of privileges, that 
people are motivated to go out and obtain employment.
    Ms. Norton. Could I have comparable information about 
pretrial detainees?
    Ms. Shaffer. Certainly. Your Honor, the pretrial work 
release defendants are actually released into the community but 
are ordered by the judges to return to the halfway house in the 
evening. They go out during the day to jobs. If this works out, 
they secure passes to go home on the weekend. They are actually 
not detained in the halfway house. It is a little different 
situation.
    Ms. Norton. How about the rearrest rates?
    Ms. Shaffer. The rearrest rates for violent or dangerous 
crimes is extremely low. In fact, it is going down. It is 
actually lower than that for the general pretrial population. 
It is still the case that about 75 percent of the rearrests 
that do take place are for not coming back to the halfway 
house. There are still a number of people every month who come 
back late or don't come back, who just walk away from it. They 
don't like the conditions of the halfway house, and they leave. 
We request bench warrants on them right away to bring them in, 
and they tell their story to the judge about the problems they 
had at the halfway house. Many times they are then stepped back 
and detained in the D.C. jail after that.
    Ms. Norton. Could I ask both of you--and this is maybe the 
most important information that came out of this hearing, when 
you consider that now we are forced, according to CSOSA--
because the law says you have to release people. If you have 
not got the halfway house, the person is out there, on us, at 
our expense.
    I have to ask you, given the wholesale opposition in the 
District, what have you done to make this information known to 
residents in the District of Columbia?
    Ms. Shaffer. I think not enough, is the answer. Not enough.
    Mr. Clark. Could I just mention one thing? And I think the 
committee should be aware that for the last 2 years, since the 
series of articles or one of the series of articles in the 
Washington Post that you mentioned created somewhat of a 
crisis, frankly, within the whole system here about the halfway 
house walkaways, under the leadership or guise of the CJCC 
there was established a standing committee on especially the 
pretrial halfway house situation, and all the agencies here, 
except the Parole Commission, who are not dealing with pretrial 
cases, came together with a number of other agencies and formed 
the Pretrial Services Subcommittee.
    Judge Michael Rankin is currently the Chair of that 
committee. We met within the last 2 or 3 days. We typically 
meet every month. We appeared before the Citizen Council to 
brief the Citizen Council. I think a little over a year ago, a 
panel of, I think, eight or nine of us appeared at that time 
before Mr. Brazil, the Chair. We were influential, I think, in 
helping the Council reshape the Bail Reform Law within the 
District to tighten up a number of cases that were being--that 
have been problematic in being placed in halfway houses.
    But on the other hand, I will agree with Ms. Shaffer, that 
there is a lot more that needs to be done to help the city 
Council help the citizenry understand this critical issue.
    Ms. Norton. I recognize, Madam Chair, that I'm over my 
time, but I would ask your leave, because I have a couple more 
questions that I would like to ask.
    Mrs. Morella. And I would like to call--to adjourn the 
hearing close to 1 o'clock if we could, but, you know, I never 
gave you a chance, Mr. Gains, to respond to that question that 
I asked the rest of the panel. It occurred to me that----
    Mr. Gaines. Thank you very much.
    Mrs. Morella. That was an omission on my part.
    Mr. Gaines. I could only, I think, echo what the other 
panelists have said. I didn't hear a single thing, I don't 
believe, that I would disagree with. The critical thing is that 
there be a sufficient structure and funding there to deal with 
whatever the issues are you take on. You can take on the big 
issues, as the chief was talking about, which are very 
critical, but once you come to an agreement there, then you 
have the nuts and bolts issue that may require two or three of 
the participants. It may require committees and subcommittees 
and working groups and whatever, but you need the structure and 
the funding there so that you can take those problems and take 
them all the way to the resolution rather than just coming to a 
general agreement.
    Mrs. Morella. Uh-huh. I thank you. I remember in the last 
Congress we worked very hard with the District of Columbia for 
the compliance with Y2K computer glitch to remedy it, and the 
discussion was after--after that worked out fine, did you learn 
something from it? And I remember the Mayor said, oh, yes, we 
have updated our technology, and we've learned a great deal 
about that. And I find in so many areas there is a need for 
updating technology and the people who work with it. And this, 
as you have said, Chief Ramsey, is an area where it's kind of 
surprising we don't have the coordination that will come about 
through technology with all of these agencies coming together. 
And I would ask you, do you all think that the need for 
integration that would come through technology and looking into 
the whole technology situation is a vital part of what we're 
trying to do?
    Ms. Jones. I would say yes. I've seen the justice system 
that the CJCC is working on, and I believe all of the 
agencies--most of the agencies at the table have participated 
in that data base which takes data from all of our different 
agencies and coordinates them into one system. It's a major 
step in the direction of providing the interagency 
technological coordination that you're speaking of.
    Mrs. Morella. Is it the technology or training the people? 
I mean, is the technology there?
    Ms. Jones. Yes. There is a software package that has been 
developed and all the agents are provided with----
    Mrs. Morella. So you're talking about training people, 
basically, to utilize it?
    Ms. Jones. It's--yes, although it's fairly user friendly to 
operate. Everyone seems to be happy with the product so far.
    Ms. Shaffer. The one caveat I would add is it's not 
realtime information. I mean, it is a vast improvement, because 
we'll be able to look at each other's information, but it is 
not realtime. So there may be a 24-hour delay; for instance, 
there may be a police officer on the street who's looking into 
the WALES mainframe to see what the release conditions are for 
a particular defendant to see whether he can arrest the 
defendant for being in violation of a stay-away order. The 
officer cannot really rely on that information because he 
doesn't know if in the last 24 hours these release conditions 
have changed. So there still is--I don't want to be misleading. 
We are very excited about the justis system, but there is still 
a tremendous amount of work to do to get to an integrated 
realtime information system for the district.
    Mrs. Morella. Right. It certainly should be an aim.
    Mr. Ramsey. Yes. And I think that's a very important point 
here. Our systems, for the most part, many of them are still 
very old. The integration just isn't there. So there's an awful 
lot of work that needs to be done. The justice system is a 
positive step, but it's not going to solve all of our problems. 
There's a need for a huge investment in the technology 
infrastructure needed to really support information sharing 
between agencies in our area.
    Mrs. Morella. This may be something we also want to 
monitor. I'm going to leave the last question to Congresswoman 
Norton, but I'm curious on the D.C. parolee's chart. Sixty-six 
out of a body of what? Do we have any idea of what the entire 
body is? Is it 66 people?
    Mr. Clark. I think the number of the parolees in the 
community supervised by court services, who are in the room 
somewhere, is somewhere in the range of 4,000, but I'm----
    Mrs. Morella. I mean, I just wondered if that had increased 
enormously with the----
    Mr. Clark. No. In fact, it's been fairly stable.
    Ms. Norton. Parolees includes people, you know, who have 
been out for--you're not just including new----
    Mr. Clark. No. Those are clients who may have been on 
parole for 5 or 6 years or whatever. Those are not just new 
parolees----
    Mrs. Morella. So the number is even much larger in terms of 
the number of parolees.
    Ms. Norton. He's saying just the opposite. He's saying that 
the 4,000 figure, will you explain what that figure involved, 
Mr. Gaines.
    Mr. Gaines. The total--our understanding is that the total 
D.C. parolee population is about 3,200 currently.
    Ms. Norton. But that involves people who have been out for 
a very long time and people who are recently arrested. So we'd 
have to know--in order to answer Mrs. Morella's question, we'd 
have to know how many recent parolees we're talking about, 
because the longer you're out, the less likely you are to be 
arrested in the first place.
    Mrs. Morella. I think the chief would like to add 
something.
    Mr. Ramsey. Well, what I'm trying to really--I think is a 
point--and please someone correct me if I'm wrong. There's 
another issue that needs to be laid out here. Over the next 18 
months or so, there is a large number of people who will be 
released from the Bureau of Prisons and will be coming back 
into D.C.
    I've heard that figure was as high as about 5,000. Now, I 
don't know if that's accurate or not, but that is certainly 
something that we need to be thinking about now, because we're 
looking at these numbers as they exist today. But within the 
next year and a half, another 5,000 or so people could be added 
to that, and that's going to certainly cause a lot of problems 
and issues.
    Mr. Clark. The number that are anticipated to be released 
is--it's somewhere between 2,500 and 3,000 a year coming out. 
Some of those have come out on parole. Some of them come out on 
a mandatory release with some supervision, and some of them max 
out their term, so to speak, and come out with no community 
supervision of any kind.
    Mrs. Morella. My point was the 66 is an even greater 
progress, given the entire body of the additions that have been 
made through the years, particularly when you look back at May 
1999. So it's even bigger.
    Thank you. Ms. Norton.
    Ms. Norton. Thank you. If I could clarify, the importance 
of the chart is the 158 figure. That is the importance of the 
chart. That would seem--that is a high point, and you look at 
the high point, and you go down to 40, and you don't--and you 
want to keep going down no matter what the overall numbers are, 
and I think that's how we're going to hold all of you 
accountable.
    Could I just ask this question? In other jurisdictions, how 
do you--how does the Federal Government fund States or local 
jurisdictions who are holding felons for the convenience of the 
government? Mr. Clark, Mr. Wainstein might be able to help me 
on that one. Who funds--in Maryland, you're Montgomery County. 
Who funds you if the Federal Government asks you to hold 
somebody who has been convicted? Who funds the locality?
    Mr. Clark. I think there's a term of art called the primary 
jurisdiction. Not being a lawyer like some of those on the 
panel, but----
    Ms. Norton. Speak in English.
    Mr. Clark [continuing]. It's my understanding--yes--that 
whichever jurisdiction has, for instance, arrested the person, 
owns that--to speak in English, I guess, owns that body, that 
person until there is a conviction and then if--for instance, 
if the local government has--authority has arrested the person, 
they've been convicted, tried, sentenced in the local circuit 
court or whatever, they're sentenced when they're ready to go 
to State prison, they would go to the State prison. If the 
Federal Government--if the U.S. attorney's office at that point 
had another case that they wanted to prosecute, at that point, 
they would--there would be typically a detainer filed, and they 
would take over primary jurisdiction of that case. And they 
would stay in the local jail at the cost of the U.S. Marshals 
Service.
    Ms. Norton. So at the cost of the Federal Government, then.
    Mr. Clark. On the other hand, if the case was prosecuted by 
the Federal Government and sentenced and ready to go as a 
Federal responsibility and the local jurisdiction, in this case 
superior court--there was a case in superior court, and the 
U.S. attorney's office in this case being the local prosecutor, 
wanted to hold the case if it was in another jurisdiction, and 
it was the State's attorney that wanted to hold the case, then 
the State jurisdiction would have to sort of borrow that person 
by filing a detainer. And at that point, they would become 
financially responsible. So if that----
    Ms. Norton. It's reciprocity, then, of funding?
    Mr. Clark. Correct.
    Ms. Norton. Mr. Wainstein, you talked about papering as a 
kind of technological problem, and I understand that problem 
there. I'd like to ask you why you require face-to-face 
multiple meetings with policemen and whether you could, at 
least as an interim matter, release our police into the 
communities by finding some shortcut to the enormous amount of 
time they now spend with prosecutors in the U.S. attorney's 
office.
    Mr. Wainstein. If I may, Congresswoman Norton, I'll answer 
that sort of in reverse order. We are actually working with MPD 
and the courts to try to reduce the number of----
    Ms. Norton. For as long as I've been in Congress, you've 
been doing that, sir.
    Mr. Wainstein. I know. We right now are actually engaged in 
a couple of efforts that would reduce the number of officers 
that have to come down for papering, specifically papering. I'm 
setting aside court calendaring, which is a completely separate 
issue. But as for papering, as I believe Chief Ramsey 
mentioned, they are working with corporation council on an 
officeless paperless pilot program right now.
    That's something that we actually initiated with MPD back 
in 1989 and because of a host of reasons, why the actual 
project--the pilot project that we initiated did not get 
going--did not get into full swing, and we've actually 
explained that in one of the attachments to my testimony here 
today. Those reasons that derailed that project are what 
they're working through right now in citation cases, which is a 
very different animal than what we deal with.
    We deal with cases where people are locked up and are 
brought in. So we have a time clock. Citation cases that 
they're working on right now in this pilot project, the person 
gets a citation and then appears, whatever, 20 or 30 days--I'm 
not sure what the timeframe is, but well down the road, giving 
corporation council and the police time to work through the 
paperwork and electronic issues.
    Ms. Norton. Look, you've heard me previously say, you know, 
all parts of the system we're now talking 60 days for a 
proposal to come to the community--to the Coordination Council, 
90 days before it comes to the Congress.
    Final question. We had a terrible situation to arise--Ms. 
Jones and Mr. Gaines may be most familiar with this--where 
people were actually held in prison because of backlogs at the 
patrol commission. This seemed to me to be absolutely 
dangerous. People were--had served their time, you know, had 
legally done what they thought they were supposed to do, and 
somebody says because the bureaucracy cannot process your 
paperwork, you'll remain in jail. The kind of rage that must 
build in somebody who has served his time is probably hard for 
any of us to imagine. Therefore I have to ask you what has been 
done about that, and what has been done and what are you doing 
to make sure that it does not occur in the future?
    Ms. Jones. A few things have been done, but the problem 
still persists. It's a problem at every stage of the process. 
There are people who are eligible for parole. For example, if 
you got a 5 to 15-year sentence, at the end of 5 years, you're 
eligible for parole. There has been delay in making the initial 
eligibility determination. So you are sometimes not quite 
getting a timely hearing. There's been delay for people who are 
in the reparole status; and then the revocation status there 
have been a tremendous amount of delays, which results in the 
Public Defender Service filing a series of Federal habeas 
corpus actions in U.S. District Court and eventually filing a 
class action lawsuit against the U.S. Parole Commission, 
seeking the release of numerous people who have not received a 
timely and expeditious adjudication of a revocation matter.
    Where we are right now is trying to figure out the--what 
are all the problems in the system, but currently as we sit 
here today, there are still people who are incarcerated beyond 
the length of time that they're supposed to be incarcerated. 
One such individual spent an additional year in jail because 
his paperwork, somewhere in the system, did not get processed. 
And the Public Defender Service represented him, and the U.S. 
District Court ordered that he be released immediately after 
spending 1 additional year in jail. So it's not yet fixed.
    And we're on the road to fixing it, but it's not yet fixed. 
And we get letters daily from people all over the country 
saying, I'm being held. They haven't had a hearing for me. I 
need to be released. I was supposed to be released months ago, 
and we are trying as best we can to work through those 
problems. Some of them we have been able to work through just 
by talking to court services and U.S. Parole Commission. Others 
we have to file litigation and get a judge to order that these 
people be released.
    Ms. Norton. Mr. Gaines, by the way, you say you have a 
class action suit, which may be--but beyond that, somebody is 
going to sue somebody for that year he spent in jail, and we're 
going to incur costs and damages for that sort of thing because 
of bureaucratic delay. Yes, Mr. Gaines.
    Mr. Gaines. Yes. In August of this past year, when we took 
over the revocation responsibilities from the D.C. board, we 
learned shortly after that there were some 230 individuals who 
were incarcerated on alleged parole violations that had not had 
hearings. Some had been locked up for a number of months, as a 
matter of fact. This became a very critical issue for us and 
actually created some of the other problems, as far as the 
backlogs are involved.
    We've refocused our limited staff resources on those 
individuals identified to ones that we could release that we 
did not feel would pose a threat to public safety. We ordered 
the release of some 116 parolees at that time and then put all 
of our resources--or most of our resources toward conducting 
hearings, revocation hearings, on the other individuals in that 
group. That caused us to put off Federal dockets that we had 
scheduled around the country. It caused us to delay some 
initial D.C. release hearings that had been scheduled. From our 
viewpoint, it is very much a resource problem. We are hoping 
that in the 2002 budget that's being supported by the 
President, if it is enacted, then we will get the sufficient 
staff that we need to take care of this backlog.
    It is getting better. As Ms. Jones said, it is not 
corrected. People are moving through the system at a faster 
rate. There are no individuals who are simply locked down and 
not moving through the process. At some stages we're at 90 
percent timeliness. At other stages, we're at 70 percent, but 
it's certainly not fixed yet. And that's the truth.
    Ms. Norton. Thank you very much, Madam Chair.
    Mrs. Morella. Well, we're going to have to work on trying 
to help with fixing, too. There must be some standards and 
maybe CJCC could help, because that's outrageous, isn't it? I 
know you all agree, and you're all committed. I want to thank 
you again for your patience, but thank you particularly for 
your expertise and the thoughtful comments that you made. We 
will probably be back in touch with you and hope you feel free 
to contact us with any suggestions or recommendations that you 
may have.
    Ms. Norton. I did not ask that this chart be put in the 
record, please.
    Mrs. Morella. Without objection, it will be part of the 
record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6090.105
    
    Mrs. Morella. I want to thank our subcommittee staff, 
Russell Smith, our staff director; Robert White, communications 
director; Matt Batt, clerk; and Heea Vazirani-Fales, deputy 
director and counsel, minority staff; John Bouker, Gene Gosa, 
Ellen Rayner, and all of you again. And so our subcommittee is 
now adjourned.
    [Whereupon, at 1:09 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the record follows:]
    [GRAPHIC] [TIFF OMITTED] T6090.106
    
    [GRAPHIC] [TIFF OMITTED] T6090.107
    
    [GRAPHIC] [TIFF OMITTED] T6090.108
    
    [GRAPHIC] [TIFF OMITTED] T6090.109
    
    [GRAPHIC] [TIFF OMITTED] T6090.110
    
    [GRAPHIC] [TIFF OMITTED] T6090.111
    
    [GRAPHIC] [TIFF OMITTED] T6090.112
    
    [GRAPHIC] [TIFF OMITTED] T6090.113
    
    [GRAPHIC] [TIFF OMITTED] T6090.114
    
    [GRAPHIC] [TIFF OMITTED] T6090.115
    
    [GRAPHIC] [TIFF OMITTED] T6090.116
    
    [GRAPHIC] [TIFF OMITTED] T6090.117
    
    [GRAPHIC] [TIFF OMITTED] T6090.118
    
    [GRAPHIC] [TIFF OMITTED] T6090.119
    
    [GRAPHIC] [TIFF OMITTED] T6090.120
    
    [GRAPHIC] [TIFF OMITTED] T6090.121
    
                                   - 

</pre></body></html>
